<html>
<title> - OVERSIGHT OF THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 113-890]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-890

                            OVERSIGHT OF THE
                    DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                          Serial No. J-113-65

                               __________

         Printed for the use of the Committee on the Judiciary







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-402 PDF                WASHINGTON : 2018                 
























                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
























                            C O N T E N T S

                              ----------                              

                        JUNE 11, 2014, 10:22 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    50

                                WITNESS

Witness List.....................................................    43
Johnson, Hon. Jeh, Secretary, U.S. Department of Homeland 
  Security, Washington, DC.......................................     6
    prepared statement...........................................    44

                               QUESTIONS

Questions submitted to Hon. Jeh Johnson by:
    Senator Blumenthal...........................................    73
    Senator Feinstein............................................    64
    Senator Flake................................................    75
    Senator Franken..............................................    71
    Senator Grassley.............................................    55
    Senator Leahy................................................    52
    Senator Whitehouse...........................................    70

                                ANSWERS

Law Enforcement Sensitive responses of Hon. Jeh Johnson to 
  questions
  submitted by:
    Senator Blumenthal...........................................    90
    Senator Feinstein............................................    96
    Senator Flake................................................   121
    Senator Franken..............................................   126
    Senator Grassley.............................................   130
    Senator Leahy................................................    77
    Senator Whitehouse...........................................   171

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Association to Invest in the USA (IIUSA), Washington, DC, June 
  18, 2014, letter...............................................   175
Human Rights First, New York, New York, and Washington, DC, 
  statement......................................................   183
Interviews with individuals migrating to the United States 
  conducted by U.S. Border Patrol agents.........................   189
Photographs submitted for the record as evidence of attacks on 
  U.S. Border Patrol agents......................................   193

 
                            OVERSIGHT OF THE 
                    DEPARTMENT OF HOMELAND SECURITY 

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:22 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Schumer, Durbin, 
Whitehouse, Klobuchar, Franken, Coons, Blumenthal, Hirono, 
Grassley, Hatch, Sessions, Cornyn, Lee, Cruz, and Flake.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. I welcome Jeh Johnson today to the 
Judiciary Committee for his first oversight hearing as the 
Secretary of the Department of Homeland Security.
    I would note for the record we are starting late because we 
had a roll call vote on the floor, and both Senator Grassley 
and I wanted to accommodate Members to be able to vote and then 
come here.
    For the past 7 months, Secretary Johnson has led an agency 
that plays a vital role in protecting our national security, 
providing disaster relief, and ensuring cybersecurity. The 
Department of Homeland Security also has primary responsibility 
for implementing and enforcing our Nation's immigration laws--
something that the Secretary has acknowledged is broken.
    Now, one year ago, this Committee came together after weeks 
of exhaustive deliberations. We met all day, way into the 
evening, day after day, and we passed bipartisan legislation to 
fix the broken immigration system. We then had major debate on 
it on the floor of the Senate, and we passed it in the Senate 
with a bipartisan majority. It would unite families, certainly 
spur the economy--as everybody from Grover Norquist on said, it 
would give a huge boost to our economy--and it would help 
protect our borders. We knew last year that the cost of 
inaction was too great, and Members of this Committee and the 
full Senate passed historic legislation that would create a 
system worthy of American values.
    Unfortunately, the House leadership refused to act. Last 
year, Senators reached across the aisle, and we worked together 
on meaningful and comprehensive legislation, but all we have 
seen from the House Republican leadership so far are shifting 
principles and repeated postponements. And I think that is a 
mistake. Republicans and Democrats came together here in the 
Senate. They ought to be able to do the same thing in the 
House. I do not think it has helped the Republican Party, but 
it also has not helped the country. And that should be more 
important than any party. Every day the House fails to act is 
another day that families are torn apart and our economy lags. 
Every day the House fails to act, we realize the human cost of 
doing nothing to fix our broken immigration system.
    We see the human cost in the gripping photographs of young 
children, seeking a better life, housed in facilities at the 
border. Even this morning's news showed pictures of that. The 
pictures are shocking. So are the numbers. In 2011, 6,560 
unaccompanied children crossed the border, some younger than 
even my youngest grandchildren. And those numbers have now 
skyrocketed. Just in the last 7 months, nearly 50,000 children 
have already been apprehended, and that number will likely 
double before the end of 2014. That is more children than all 
the people in the largest city in my State of Vermont.
    President Obama has called this an ``urgent humanitarian 
situation,'' and I agree. And I commend Secretary Johnson for 
coordinating with relevant agencies to address this dire 
situation. But reports indicate that the flow is overwhelming 
the agencies responsible for these children. The Senate-passed 
immigration bill would help address this issue. If people want 
to address it, the House should take that bill up immediately.
    And I am deeply concerned with the conditions and treatment 
of other immigrant detainees, especially those who are sexually 
assaulted while in custody. When Congress passed the Leahy-
Crapo Violence Against Women Reauthorization Act last year, it 
included a provision designed to prevent sexual violence in DHS 
facilities. I thank the Department for recently issuing 
compliance regulations, and I look forward to hearing about the 
changes underway to stop the abuse.
    I am troubled by reports of Border Patrol agents resorting 
to the use of deadly force. Since 2010, agents who were 
assaulted with rocks have responded with deadly force 43 times, 
resulting in 10 deaths. One who received, in effect, this death 
sentence was Jose Rodriguez, a 16-year-old boy who was shot 
multiple times, including in the back of his head. He should 
not have thrown a rock, but he should not have been shot. And 
20 months later, the investigation into this boy's death is 
still without resolution. The Border Patrol's recent release of 
its use-of-force policy handbook and directive on how personnel 
should respond to threats is a positive step, but we need more 
transparency, we need more timely resolution so that the 
families involved can have closure and agents can have better 
training.
    In addition to this human cost of our broken immigration 
system, there is a powerful economic cost. I have long 
championed the EB-5 Regional Center Program because of its job 
creation potential in Vermont and in other States. Senator 
Sessions has joined me on that. And it is done with no cost to 
American taxpayers. But absent congressional action to make 
this jobs program permanent, the program's potential is 
limited. I am concerned that visa processing delays are 
threatening to undermine economic development where it is 
needed most. This uncertainty could slow down the program's 
growth and deter investors, so I urge the Department to focus 
on timely consideration of EB-5 applications.
    You know, the status quo is not an option. It is not 
sustainable for our families, for our economy, or for our 
national security. The humanitarian crisis we now face is just 
the latest reminder of why House Republicans must act, as we 
did in the Senate a year ago. Republicans and Democrats came 
together to fix our broken immigration system. We have waited 
too long, but there is still a window of time for the 
Republican leadership in the House to join us in this important 
effort.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    I look forward to discussing these issues with Secretary 
Johnson. I will yield first to Senator Grassley, and then we 
will hear from the Secretary.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Secretary Johnson, I appreciate your 
being here. Hearings like this are very essential to Congress' 
oversight of the executive branch. You have committed, 
Secretary Johnson, to cooperating with Congress. I appreciate 
that. I know that you have instructed your staff to respond to 
every letter in a timely manner. There are some letters that 
are older than before you became Secretary that the Department 
still has not responded to. Of course, the fact that those were 
not responded to is not your fault, but maybe you can do what 
you can to speed up what Secretary Napolitano did not do. So 
many times answers are not responsive, so it is especially nice 
to have you here today to provide answers on issues that we all 
care about.
    Two weeks ago, the House Judiciary Committee asked you, Mr. 
Secretary, to explain why the Department released more than 
36,000 convicted criminal aliens from custody in the year 2013. 
At that time you did not have an answer, saying that you wanted 
``a deeper understanding'' of this issue. So I look forward to 
hearing today what you have learned on those issues in the last 
2 weeks, because releasing 36,000 people with criminal 
convictions is no small matter. These individuals have been 
convicted of homicide, sexual assault, and kidnapping. They are 
also, many of them, drunk drivers and drug offenders. And, of 
course, now they are free roaming our streets.
    The administration cannot hide behind the excuse that it 
released these individuals due to a court order, although that 
might be true in some cases, but in many cases, the decision to 
release was entirely voluntary. The Department needs to explain 
those decisions in specific cases and in detail.
    I am also concerned that the President believes that he can 
and should act on his own when he does not get his way with 
Congress. He said, and you have heard this quote: ``I have got 
a pen and I have got a phone.''
    For example, in 2012, Congress was not consulted about 
deferring enforcement action on individuals in the country 
illegally. The Department made its own rules, and the program 
has proven to be a haven for loopholes and mischief.
    The Secretary just announced a renewal of the program, and 
weakened it. For example, the administration gutted the 
requirement and made the process easier to reapply by 
eliminating any need to provide evidence. What is alarming is 
that the Department confirmed that it does not routinely check 
the validity of documents that are presented by applicants.
    When applications seem to be rubber-stamped and lawful 
status is so easily obtained, it is no wonder there has been a 
surge of unaccompanied alien minors at our southern border. The 
number of minors coming to our country has climbed from 6,000 
in 2011 to an expected 145,000 next year.
    Some are calling it a humanitarian crisis. And, quite 
frankly, it is. These, of course, are vulnerable children. They 
are being guided through deserted areas of adjoining countries 
with their lives on the line. They are escorted with strangers, 
away from family in some cases, not knowing what lies ahead. 
There is a massive potential for these children to be abused.
    If the administration does not do its due diligence to 
verify the relative or parental relationship when it releases 
these children, then, of course, those same children could be 
put in the hands of pimps or traffickers.
    Children are being lured into these dire circumstances 
quite frankly by false promises. The administration has refused 
to be serious about immigration reform. It has a policy of 
``just get to the answer yes,'' and that is a philosophy that 
has sent a signal that everyone has a chance of getting 
immigration benefits, even if you have to break the law to get 
them. The administration is finding ways to get around the 
rules, implementing many of the recommendations in the internal 
2010 amnesty memo that was leaked.
    This is a disaster made by the administration, and only the 
President can correct it by sending the signals that these 
people should not be brought here and that the law is going to 
be enforced. In other words, the President must take 
responsibility.
    Unfortunately, the administration does not seem to be 
prepared. It has failed to propose any solutions that will 
prevent children from being put in this situation in the 
future.
    Let me suggest for starters that the President needs to 
send a signal that the law will be enforced and that people 
with unlawful status will be returned to their home country. 
Instead of reviewing deportation policies and suggesting ways 
to remove fewer people, I would suggest that the President task 
you, Secretary Johnson, with finding ways to actually enforce 
the laws that we have on the books.
    What is ironic is that the executive branch has taken 
action on so many controversial matters but refuses to do more 
to close loopholes and improve national security in several 
programs.
    Let me give you an example. In January, the Fourth 
Circuit's decision in Holder v. Martinez paved the way for 
former gang members here illegally to argue that their status 
as a former gang member entitles them to remain in the United 
States. This would open the door to violent gang members 
renouncing their membership as a ruse in order to just stay 
here. But the Department of Justice did not appeal the ruling. 
And I would hope that you, Secretary Johnson, would give us 
your opinion on it and maybe even suggest that it be appealed.
    The new exemptions to the immigration laws that were 
announced by the Secretary in January are also very concerning. 
These exceptions would allow foreign nationals who have 
provided ``limited'' material support to terrorists and 
terrorist organizations, that these people could, in fact, find 
asylum in the United States. We should not be relaxing our laws 
to permit anyone with a connection to terrorism to live here. 
And especially when it is reported that up to 70 percent of the 
asylees show signs of fraud, I do not have confidence in our 
Government's ability to effectively carry this out.
    In addition, the Department's management failures in 
administering the Chemical Facilities Anti-Terrorist Standards 
program, intended to regulate chemical facilities for national 
security purposes, are very well documented. I have stated that 
in previous hearings. Although some welcome progress has been 
made recently, I continue to be concerned that the program is 
not functioning effectively. The Department is far behind in 
meeting its deadlines.
    Optional Practical Training, created by executive branch 
regulation, provides foreign students the opportunity to obtain 
work in their major areas of study during and after completing 
an academic program here. In 2014, the Government 
Accountability Office report found extensive and alarming 
mismanagement of the program. The Department does not know 
where thousands of these individuals are working or whether 
they are working at all. Given the risk that foreign students 
have posed to our homeland, I consider this a serious matter. 
So I asked Secretary Johnson to place a moratorium on the 
program until he can certify that all participants have been 
located.
    Two other issues shortly. One is the EB-5 Regional 
Investment Program. That, as you know, is an employment-based 
immigration program designed to stimulate job creation through 
foreign capital investments. Yet we have been told that this 
program is being used to facilitate terrorist travel, economic 
espionage, money laundering, and investment fraud. The 
Inspector General said the agency cannot manage the EB-5 
program effectively. The program needs a complete overhaul and 
some real attention from the administration before the 
vulnerabilities have a devastating effect on the homeland.
    Finally, I want to comment on the use of drones. The use of 
drone technology holds great promise for the securing of our 
borders. The Department of Homeland Security should be as 
transparent as possible about how it intends to use drones. In 
July 2013, it was reported that a Customs and Border Protection 
document connected to its drone program, apparently made public 
through a FOIA request, suggested that Customs and Border 
Protection might arm its drones with non-lethal weapons. That 
agency reportedly issued a statement shortly thereafter 
disclaiming such an interest. But if that was the case, why 
would the document say that?
    I yield the floor.
    Chairman Leahy. Mr. Secretary, your full statement will be 
placed in the record as though read. Before we came in here, 
though, you mentioned to me--and I think this is a good idea--
that you wanted to talk about what is happening on the border, 
so consider your full statement part of the record, and please, 
the floor is yours.

 STATEMENT OF HON. JEH JOHNSON, SECRETARY, U.S. DEPARTMENT OF 
               HOMELAND SECURITY, WASHINGTON, DC

    Secretary Johnson. Thank you, Senator, Senator Grassley, 
Members of this Committee. You have my prepared statement. In 
it I refer to the various missions of DHS, including the 
counterterrorism mission, border security, aviation security, 
cybersecurity, maritime security, response to natural 
disasters, protection of our national leadership, among other 
things. In the 5 minutes I have, I would like to focus on the 
problem of children crossing our southwest border, in 
particular into South Texas and the Rio Grande Valley Sector.
    Chairman, as you noted, the numbers are rising. From 2011, 
there were approximately 6,000 that year. This year, there will 
be multiples of that. This correlates with an overall rise in 
illegal migration into the Rio Grande Valley Sector principally 
from what we refer to as ``third country nationals,'' those 
from Guatemala, El Salvador, and Honduras, who are 
approximately three-quarters of that population.
    To meet this surge, we have had to surge resources that are 
normally dedicated to things such as border security. I saw 
this situation vividly myself on May 11th when I visited 
McAllen Station processing center. It happened to be Sunday, 
Mother's Day. I approached a 10-year-old girl and asked her, 
``Where is your mother?'' And she told me, ``I do not have a 
mother. I am looking for my father in the United States.''
    I returned to Washington the next day determined to do 
something about the situation. Undeniably, there is a problem 
of humanitarian proportions in the Rio Grande Valley Sector 
that we must deal with, so here is what we are doing about it.
    Number one, on Monday, May 12, I declared a Level 4 
condition of readiness within the Department of Homeland 
Security, which is essentially a determination that the 
capacity of CBP and ICE to deal with the situation is full and 
we need other resources of DHS. I appointed the Deputy Chief of 
the Border Patrol to be the DHS coordinator of that effort for 
a DHS-wide response to this situation.
    On June 1st, pursuant to the Homeland Security Act, 
directed me to establish a unified coordination group to bring 
to bear the assets of the entire Federal Government. This 
includes DHS and all of its components, Health and Human 
Services, the Department of Defense, DOJ, GSA, and the State 
Department. I have in turn appointed the FEMA Administrator, 
Craig Fugate, to serve as the Federal coordinating official for 
this U.S. Government-wide effort. Our goal is to quickly and 
safely transport the unaccompanied children out of CBP custody 
into the hands of HHS, supplementing this process all along the 
way in a safe and humane manner, into ultimately a safe and 
secure environment that is in the best interest of the child, 
pursuant to the requirements of the law. FEMA has dedicated 70 
people full-time to coordinating this effort.
    We are looking for more space for processing and for 
detention. The Department of Defense has loaned us Lackland Air 
Base in Texas for HHS to process the kids. We are leasing Fort 
Sill in Oklahoma for the same purpose. We have gone to a DOD 
facility in Ventura, California, to deal with the processing of 
the influx of people into South Texas. We have had to go beyond 
McAllen Station. We have had to go to Nogales, Arizona, as 
Senator Flake knows. Initially, we were sending family units to 
Nogales for processing there, and then on into the interior if 
they are released. We are now sending children, UACs, to 
Arizona. As I explained to Governor Brewer on Saturday night, I 
pledge to deal with this situation as best I can and to manage 
the situation as best I can. As of now, we are sending UACs, 
the unaccompanied children, to Arizona for processing and then 
on to HHS. They are not being released into Arizona.
    GSA is looking for other space to lease to deal with family 
units, to deal with the children, to deal with the processing 
of these kids. We brought on more transportation assets. The 
Coast Guard at my direction is loaning air assets to 
transporting children from DHS to HHS custody and from one HHS 
facility to another to deal with this situation. ICE is leasing 
more aircraft.
    Five, we are doing a preliminary screening for health 
reasons of all those who come into our facilities in South 
Texas. The Office of Health Affairs and the Coast Guard is 
lending in that effort. And we called upon NGO's, volunteer 
organizations, charity organizations to assist in this effort. 
The American Red Cross I have had conversations with directly. 
At our request they are providing humanitarian needs for the 
situation--blankets, hygiene kits.
    I would like to give a shout-out to the Texas Baptist men 
who have provided shower trailers in South Texas. The 
Department of Justice is loaning resources, immigration judges 
for faster removal proceedings.
    In addition to all this, we know we must do something to 
stem this tide, so we have been in contact--I have done this 
personally--with Ambassadors and other officials of all four 
countries--Guatemala, El Salvador, Honduras, Mexico--to talk 
about our shared border security interest and faster 
repatriation. I plan to go to Guatemala myself in July to deal 
with this situation.
    We have reinitiated our public affairs campaign in Spanish 
and in English, radio, print, and TV, to talk about the dangers 
of sending your kids over the border and the dangers of putting 
your kids into the hands of criminal smuggling organizations.
    We have surged criminal investigator resources in HSI and 
CBP for the prosecution of smugglers, those who smuggle the 
kids. In May 2014, there were 163 arrests of smugglers along 
the southwest border. I have directed a 90-day surge of HSI 
personnel, 60 personnel to offices in San Antonio and Houston, 
to work with DOJ to ramp up our prosecutions of the smuggling 
organizations.
    In May, I directed a unified campaign plan to deal with the 
southwest border, calling upon all assets of the Department of 
Homeland Security in a coordinated way to address our border 
security in the southwest border and to fill the gaps, if 
necessary to call upon departments of our Government to assist.
    I have asked that we consider all lawful options to deal 
with this situation. If there are options, I want to hear about 
them.
    Finally, Members of this Committee and the Senate, we need 
your help. We have asked through OMB for an additional $166 
million in Fiscal Year 2015 to deal with this situation. I know 
HHS has also asked for additional funding. I am providing daily 
reports to my interagency partners. I am receiving daily 
reports on this situation. Yesterday we began briefing Members 
of Congress and their staffs in conference calls three times a 
week. I am told yesterday in our call we had 300 call-ins from 
up here on the Hill to keep you informed. We are, we can and 
must address this situation.
    Thank you.
    [The prepared statement of Secretary Johnson appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, and I appreciate that 
because, as you know, this is an area we are greatly concerned 
about.
    Incidentally, I would like to take a moment to recognize we 
have some special guests with us here today. Normally we do not 
do this, but I want the record to show we have in the audience 
families who have been personally impacted by deportations and 
some directly impacted by CBP use of force, and I appreciate 
those. Please feel free to stand and just the record would note 
that you are here. Thank you very much.
    Mr. Secretary, it has been a year since the Senate passed 
the comprehensive immigration bill. I mentioned in my opening 
statement about the work we went through. We were here some 
nights until 9, 10 o'clock at night. I remember the excitement 
when we finally passed it out of here.
    I was out on the west coast, in Oregon, in a farm 
community, and I went to a church. They had hundreds and 
hundreds of Spanish-speaking people who said they had watched 
every bit of this hearing. They had seen, because we streamed 
it and C-SPAN carried it, and they would watch it at night on a 
big screen in the church auditorium. And one of the hundreds of 
people in this church said to me, ``Do you remember when the 
gavel came down on the final vote, a number of people in the 
back of the room stood up and shouted, `Viva, Leahy' ''? And I 
said, ``Well, yes, and that meant a great deal to me.'' He 
said, ``Well,'' and then the whole congregation stood up and 
repeated that.
    It was personally gratifying, but it would be a lot more 
gratifying if we actually get the bill through. Republicans and 
Democrats worked together to get it through the Senate, and we 
passed it. We passed it in the Senate.
    But now we need to have real pressure from the 
administration on the other body. I am discouraged when I hear 
the press say, ``Well, immigration is dead.'' Well, that is 
easy to say if you are in a job where you are paid every week, 
whether it is in the media or anything else. But if you are a 
family looking for immigration reform, it is not easy to hear.
    So can you tell us why it is do imperative that the House 
of Representatives takes up the bipartisan Senate bill and 
start voting on it?
    Secretary Johnson. Senator, as you noted, it is my belief 
that our current system is broken and totally unsatisfactory 
for reasons that I think almost every in this room can agree. 
As I look further and further into the system, I find more and 
more problems. And we have 11.5 million undocumented in this 
country who are not going away. They are not going to self-
deport. In many States now, they can have driver's licenses. In 
the State of California, the Supreme Court says that an 
undocumented immigrant can practice law. So I do not think they 
are going away, and I do not think they are going to self-
deport, and I do not think we have the resources to deport 11.5 
million undocumented. In fact, I know we do not.
    And the bill passed by the Senate last year by a vote of 
68-32 I think addresses the problems we have in a number of 
respects: border security, added border security, added 
personnel, added resources, which is something I believe we 
need very much, particularly on the southwest border; mandatory 
E-Verify; and an earned path to citizenship for the 11.5 
million who are here.
    Some people would brand that ``amnesty.'' I do not. It 
requires an extensive vetting. It requires accountability. It 
requires paying penalties and taxes. And it requires a 13-year 
wait to get on line behind those who are already on line.
    So I believe that it is an excellent piece of legislation. 
It is obviously the product of a lot of compromises and very 
hard work, but I believe that the bill that was passed by the 
Senate last year will go a very long way to adding to our 
border security and fixing our system. And I am continuing to 
urge the House of Representatives to pass comprehensive reform, 
whether in one bill or a series of bills, but we really need to 
act on this. And I remain optimistic that we will.
    Chairman Leahy. This country, to its credit, has responded 
to humanitarian crises around the world, whether it is tsunamis 
in the Pacific, earthquakes in Haiti, and so on. But we have 
got a humanitarian crisis right here in the United States. I 
mentioned seeing children at the age of our grandchildren when 
they go to grade school, and they have a adult walking them to 
school and living in a nice, secure home and all. And yet we 
see these children holding each other's hands, coming by 
themselves, whether from El Salvador or wherever else, to cross 
the border. They are risking everything on this journey. Some 
do not make it alive.
    Now, some have suggested the administration's DACA policy 
or the proposed DREAM Act is driving the crisis. I do not 
agree. I think it is the fact that we in the Congress have not 
fixed a broken immigration system. I feel very strongly about 
this. I live in a border State, and I realize it is entirely 
different, the northern border. I am an American first and 
foremost, and I think this is the America that brought my 
grandparents here from Italy. I wonder what we are doing.
    What do you believe is driving this huge rise in these 
children crossing the border?
    Secretary Johnson. Senator, I believe that the situation is 
motivated primarily by the conditions in the countries that 
they are leaving--El Salvador, Honduras, and Guatemala. 
Violence, poverty--I believe that is principally what is 
motivating the situation.
    I suspect also that the parents are aware that under our 
current law, once they are in the hands of CBP, they are--we 
are required to give them to HHS, and HHS is required to do 
what is in the best interest of the child. But I believe that 
what is motivating this principally are the situations in the 
countries that they are leaving.
    Chairman Leahy. Doing what is best for the children, but 
the facilities that they are being detained in, outside 
observers have not been able to look at those facilities, as I 
understand it. NGO's have not and others have not. I would urge 
you to allow others to go in and look at these facilities or, 
frankly, some of us will come down and look at them. I think it 
should be done.
    Secretary Johnson. I have been to McAllen once. I am going 
back again next week. I am going to a detention facility 
outside Chicago the day after tomorrow.
    Chairman Leahy. I appreciate that.
    Secretary Johnson. This is something I care about.
    Chairman Leahy. I know you do, but let us make them more 
open about what is going on. And are you taking steps, my last 
question--I referred to what I think is the excessive use of 
force, somebody shot several times, a teenager shot several 
times because he threw a rock. Nobody justifies the throwing of 
the rock, but nobody justifies a death sentence for throwing a 
rock. Are you taking steps to ensure that there is proper 
training and proper action when excessive force is used?
    Secretary Johnson. Senator, I know from my days as the 
senior lawyer for the Department of Defense that, whether it is 
a law enforcement entity or a military force, if excessive use 
of force occurs, it threatens to undermine the entire mission 
and the credibility of the entire mission. So I have encouraged 
CBP to be more transparent when it comes to its use-of-force 
policies, and they have. And I have encouraged CBP to more 
explicitly deal in the use-of-force policies with rock throwing 
and situations where the officer is threatened by a vehicle and 
they have rewritten those policies. I applaud the 
Commissioner's efforts at more greater transparency and the 
personnel changes he is making in internal affairs in CBP.
    Chairman Leahy. And we can discuss this further. I do not 
want to take up further time. Senator Grassley?
    Senator Grassley. Mr. Secretary, I am going to start with 
documents from your Department that reveal that ICE released 
about 36,000 convicted criminals awaiting deportation; 116 of 
those individuals were convicted of homicide, with a total of 
193 homicide convictions among that 116 people. One conviction 
even included willfully killing a public official with a gun.
    ICE claims that the court decisions required the release of 
criminals who were convicted of 72 percent of the homicides. I 
have asked for evidence to prove that. But that means that by 
its own admission the Department voluntarily set free an untold 
number of murderers. I would like to know how that happened, 
and have you made any effort to relocate them?
    Secretary Johnson. Senator, first of all, I received a 
letter from you on Monday on this topic, which I intend to 
respond to promptly. I have received a number of letters from 
Members of Congress on this, and we have responded.
    You are correct that a number of these are the result of 
orders from immigration judges. I believe you noted that in 
your opening remarks. It is also the case that a large number 
of these releases are after final orders of deportation and we 
have gone beyond 6 months of detention. And Supreme Court 
precedent requires, with exceptional circumstances, that we 
release an individual if after 6 months it does not appear we 
can repatriate the individual pursuant to a case called 
Zadvydas v. Davis in 2001. And you were also correct that a 
number of releases are at the discretion of ICE officers 
pursuant to conditions of release that are intended to secure 
their return.
    Now, I have asked for greater clarity on the numbers, 
particularly the 116 in Fiscal Year 2013 who appear to have 
been released after a homicide conviction. I would like to 
understand the circumstances under which that occurs, 
particularly the case you referred to of the killing of a 
public official with a gun. I am waiting for an answer on that.
    I have asked our people to do two things, Senator:
    One, I want to be sure that we are construing the Supreme 
Court precedent properly. There is an exception in the rule for 
extraordinary circumstances of national security, public 
safety. I want to be sure we are not construing that too 
narrowly.
    And in the case of a convicted felon convicted of a 
homicide, I want to understand why that does not fit within the 
exception. So I have asked our lawyers to take a close look to 
see whether we are reading the case properly. I also want to 
have greater clarity with regard to the approval process and 
the review process for releasing these individuals and possibly 
elevate the approval level for releasing a convicted felon 
pursuant to conditions.
    So it is something, Senator, that I am very focused on. I 
agree with your concerns, and I will be responding to your 
letter with greater detail, sir.
    Senator Grassley. Okay. Then I will go into more specifics 
in this area. With regard to the 36,000 criminal aliens 
released, the administration uses the excuse that many 
individuals were released according to court order. I would 
like to have you provide me with data on the recalcitrant 
countries by the end of the week, if you would, on why they 
will not take them. And when you testified on the House side, 
you said you were not aware of how many times your Department 
has asked the Department of State to use its visa denial 
authority. So I would like to have you tell me, if you can 
right now, if you have any plans to recommend that Senator 
Kerry deny visas to countries that refuse to cooperate. And the 
reason that I ask that question is it seemed like in the case 
of Guyana, when we use that tool, that they accepted 115 out of 
116 people that we wanted them to take back. So it would seem 
to me to be quite a tool.
    Secretary Johnson. I am aware of the case of Guyana from 
2001. I agree it was effective in that instance, and I have 
asked our staff to take a look at whether we should do more of 
this.
    Senator Grassley. Well, when you reach a decision with your 
staff on that point, would you tell us by writing, please?
    Secretary Johnson. Yes, sir.
    Senator Grassley. And I hope you will make a quick 
decision, because I think this is something that we need to 
work on to get these countries to take these people back.
    Then also you brought up the Zadvydas case, and I would 
only suggest to you that it probably needs a legislative fix. I 
do not have a legislative fix to present, but would you see 
that as something that you could look at as a way of narrowing 
the impact of that case? Because I think you are reviewing it, 
and I am glad to hear that you are reviewing it, and there may 
be wider use than is appropriate. So I think a legislative fix 
is necessary.
    Secretary Johnson. Senator, it is my understanding that the 
case concerns a construction of the Constitution, so I do not 
know whether a legislative fix is appropriate. But I think 
looking at legislation is worthwhile. When I read the case, I 
was struck by the fact that there might be room for greater 
space in the exception for detaining people who are true 
threats to public safety. So I am interested in having our 
lawyers be sure we are interpreting it properly, and I would be 
willing to think about legislation, sir.
    Senator Grassley. This will have to be my last question 
because I will go over the equal time that I have with the 
Chairman. The crisis along the border--this is in regard to 
unaccompanied children. The crisis along the border involving 
these minors I think--and you probably would disagree with 
this, but it can be attributed to the President's policies. You 
recently said, ``We have to avoid practices and policies that 
operate as magnets for further illegal migration.''
    I understand that there are a variety of reasons that 
people come to this country: family, finding work, obviously 
wanting a better life. But it is clear to me and to agents 
interviewing these children that this surge is partly due to 
the promises of immigration reform and administrative amnesty. 
So while I applaud the administration's efforts working 
together to find shelter, food, and clothing for these 
children, no one has presented a long-term solution. I take 
into consideration the contacts you have said you have made or 
are going to make. But if you are releasing tens of thousands 
of individuals each year, how will anybody in a foreign country 
think that we are serious about enforcing the laws?
    And, by the way, I will not go into detail because I do not 
have time, but we have a summary of some questionnaires and 
interviews that were made with about 230 people, and you 
quickly draw the conclusion from this memorandum from your 
Department that does not have an official seal that people are 
coming here because they think we have passed a new law and 
they want to take advantage of it.
    Secretary Johnson. Well, first of all, those apprehended at 
the border are priorities for removal. If you are apprehended 
at the border, if you are a recent arrival, you are a priority 
for removal. That is one. The legislation that is being 
contemplated provides for an earned path to citizenship only 
for those who arrived in this country before the end of 2011. 
So it would not provide for an earned path to citizenship for 
somebody who came here yesterday.
    Senator Grassley. That is the propaganda that is going out, 
that there is a new law.
    Secretary Johnson. Well, that does not square with the 
reality of the legislation.
    Senator Grassley. I am sorry.
    Chairman Leahy. That is okay. Well, what we could do, if we 
wanted to solve the problem, is have the House pass the 
legislation that we passed, and that would settle it, and 
people would know where we are.
    I am going to turn the gavel over to Senator Feinstein, but 
I am going to leave you in writing two questions, one about the 
staffing on the northern border, especially as it is impacting 
the State of Vermont where it is slowing commerce--where the 
lack of staffing is really slowing commerce and hurting us, and 
also a question on EB-5. I would appreciate it if you or your 
office could give me a response on that this week.
    Secretary Johnson. We will do so, yes.
    Chairman Leahy. Thank you.
    [The questions of Chairman Leahy appears as a submission 
for the record.]
    Chairman Leahy. Senator Feinstein.
    Senator Feinstein [presiding]. Well, thank you very much, 
Mr. Chairman.
    Let me begin by saying congratulations on taking forceful 
action. I am really impressed with your initiative. I support 
everything you have done. I became involved in this issue in 
2008 when on television I saw a young Chinese girl--I think she 
was 14--chained before a judge, tears rolling down her face. 
She was a survivor of one of the container episodes where 
people came across the Pacific in a container. And she could 
not speak the language. She had no resources. Her parents were 
dead. And I got involved in the issue and authored the 
Unaccompanied Alien Child Act, which President Bush signed. It 
became the law. And then there were some changes made which 
moved the children into HHS and the Office of Refugee 
Resettlement. But I have never seen anything like this.
    I was just looking at the statistics, and here is the 
problem--and it is Honduras, it is Guatemala, and it is El 
Salvador. And Honduras from 2009 to 2014, the increase is 1,272 
percent; Guatemala, same time, the increase is 930 percent; and 
El Salvador, it is 707 percent. Unaccompanied aliens under the 
age of 17 from Mexico have actually dropped 28 percent. So this 
appears to me to be very much a Central American problem.
    If you look at where they are coming across, that changes 
it, and, of course, the biggest change is in the Rio Grande, 
Senator Flake's area, where we have 33,470 minors coming into 
this country that way. But, I mean, this is a real heartbreak. 
And if I were the President of El Salvador or Guatemala or 
Honduras, I would not stand by and see this happen.
    You mentioned that you met with their Ambassadors. Is there 
not something that those countries are willing to do, A, to 
provide some protective ability to the very poor families, some 
food, because as I understand this, these are parents that 
cannot provide for their children; and, C, their children's 
best opportunity to live and remain unmolested is taking what 
must be a horrendous journey, probably for the most part 
handled by coyotes?
    So the question I have of you, Mr. Secretary: What was the 
response of the Ambassadors with whom you spoke?
    Secretary Johnson. Well, the response is all the right 
things, but the follow-up is going to be key. And that is why I 
think sustained engagement with the senior-most levels of their 
governments is key. I called all four Ambassadors Monday 
morning after I came back from Texas, and they all said the 
right things, and they all pledged assistance to this. But 
sustained, continued involvement, they sent consular resources 
to Texas to help us repatriate some of these kids. So they have 
devoted their consulate personnel on the border. But you are 
right. We have got to deal with the underlying conditions in 
their countries, which is obviously a big undertaking on their 
part. And we have just got to engage with them on this because 
there is no other way.
    I think a key to this also is the Mexican-Guatemala border, 
which is the chokepoint. Our southwest border is 2,300 miles 
long. Their southern border is 130 miles long through which 
almost all of these kids are passing. And so with the 
cooperation of the Mexicans and the Guatemalans, if we can help 
with greater border security along that border, I think it will 
go a long way. And so that is one of the reasons I am going to 
Guatemala next month.
    Senator Feinstein. Well, I am going to write a letter--and 
anyone that would like to join me--to the presidents of these 
countries and just give them the statistics and indicate our 
great interest in this issue. I mean, we can provide--I have 
got--Senator Flake has a huge facility in his State, in 
Arizona, and one is about to open in Ventura in California. I 
have two people there today. We have alerted your staff to take 
a look at the facility. But I am really concerned. This is the 
beginning of an epidemic, and unless safety is restored to 
these home States and poverty is alleviated to some extent, I 
see it continuing, because it is hopeless for children. And I 
would hope that people out there--I see a collar of the 
Catholic Church--others--would really pay attention to this.
    I am certainly willing to be helpful. We can work with the 
Unaccompanied Minors Act. We can make some changes, I suppose. 
But it does not solve the basic problem. And so I would ask any 
Member that would like to join with me in a letter to the 
presidents of these countries and say, ``What are you prepared 
to do?'' I mean, the embarrassment must be enormous.
    Do you have any specific actions that these countries might 
take that we could work to convince them to take?
    Secretary Johnson. I would be happy to work with you on 
suggestions for such a communication, Senator. There are a 
number of things that we are contemplating asking of them, but 
I would be happy to work with you on those.
    Senator Feinstein. Good. Thank you.
    Secretary Johnson. I would also like to add, Senator, that 
we have gotten, I think, some terrific offers of help from 
faith-based organizations who are concerned about the situation 
in Texas, and that has been a terrific response.
    Senator Feinstein. Thank you.
    Senator Grassley. Madam Chairman.
    Senator Feinstein. Senator Grassley.
    Senator Grassley. Before Senator Hatch, I would like to put 
in the record the interviews that I spoke about in my last 
question to the Secretary.
    Senator Feinstein. No problem. So ordered.
    Senator Grassley. Thank you.
    Senator Feinstein. Thank you.
    [The information referred to appears as a submission for 
the record.]
    Senator Feinstein. Senator Hatch.
    Senator Hatch. Well, thank you, Madam Chairman. I 
appreciate you and all the difficulties that we have had in 
putting all these matters together. I still remember resolving 
the agricultural component of the Senate bill in your office 
under your direction. It was a very, very good job by you.
    Mr. Secretary, I commiserate with you. This is a tough job. 
And if anybody can do this right, I hope with all my heart that 
you can. It is also an impossible job in some ways because of 
the failure of Congress to do what really needs to be done 
here. But even then, it is going to have to take a lot of 
effort on just about everybody's part to resolve these 
problems.
    And I share the concerns raised by Senator Grassley about 
the alarming increase in the number of unaccompanied alien 
children along the southwest borders. The administration is 
calling this a humanitarian situation, but in my view, the 
administration's own unilateral actions and permissive approach 
to immigration enforcement have created this problem. And I am 
concerned about it because I just do not think--I think the 
administration has been irresponsible in this regard.
    Let me just say this: In April, U.S. Citizenship and 
Immigration Services confirmed for the second year in a row 
that the H-1B visa quota was reached within the first 5 days. 
Now, we tried to solve that in the Senate bill or at least make 
strides to solve it. Preserving jobs for American workers is 
important, but a recent study by the Partnership for a New 
American Economy shows that the H-1B visa cap actually hurts 
U.S. job growth.
    Our time is limited this morning, so I would appreciate, 
you know, maybe some brief responses to what questions I am 
able to make. But I know you agree with me on the H-1B visa 
situation, that we need to solve that problem, too. Or at least 
I hope you agree with me. If you do not, we are going to have 
some real talks together.
    Senator Feinstein. Senator Hatch, before the Secretary 
answers your question, I have a French intelligence delegation 
waiting, and I am going to ask Senator Whitehouse to take over.
    Senator Hatch. That would be fine.
    Senator Feinstein. I will give him the list, so thank you.
    Senator Hatch. Thank you. Okay. The Secure Communities 
Program is designed to locate, take custody of, and remove 
criminal aliens. This important program, however, could be 
rendered useless if local law enforcement agencies failed to 
turn criminal aliens over to ICE officials. Federal litigation 
involving immigration detainers is increasing. These are the 
officials notices from ICE that the agency intends to take 
custody of an individual from a local law enforcement agency. 
Now, that litigation is unraveling the cooperation between ICE 
and the State and local law enforcement agencies.
    Do you believe that ICE detainers should be honored by 
local law enforcement agencies? And if not, how would you keep 
the Secure Communities Program effective?
    Secretary Johnson. I have a lot of thoughts about Secure 
Communities. First of all, immigration detainers themselves go 
back decades. When I was a prosecutor 25 years ago, we had 
immigration detainers put on people, so those are not new. The 
Secure Communities Program is essentially fingerprint sharing 
between the FBI and the immigration component. That is what it 
is. There is a lot of misunderstanding about what Secure 
Communities is.
    I believe that the goal of Secure Communities is a good 
one, which is to promote more effective enforcement against 
those who are threats to public safety, those who are 
criminals. I believe it is a worthwhile program. However, it 
has gotten off to a very bad start. It has a very bad name. 
There are mayors and Governors out there signing executive 
orders, passing laws that limit a State or a city's ability to 
comply with a detainer, and that is an extremely unfortunate 
situation. They are limiting the ability of our people to do 
their job.
    And so I believe, as I have said before, that we need a 
fresh start on this program. I am evaluating how to more 
effectively enforce our immigration laws against those who are 
threats to public safety, and I believe we need clearer 
guidance for our people. And with the clearer guidance, I 
intend to take that to the Governors and mayors to say here is 
who our enforcement priorities are so that you do not have any 
uncertainty about that anymore. And hopefully we will do a 
better job in cooperating with each, because I do believe that 
the principle is a good one, Senator.
    Senator Hatch. Well, thank you. My time is up, Mr. 
Chairman, and I appreciate you and what a difficult job you 
have.
    Secretary Johnson. Thank you.
    Senator Whitehouse [presiding]. Secretary Johnson, how are 
you?
    Secretary Johnson. How are you?
    Senator Whitehouse. Can we talk about cyber for a minute?
    Secretary Johnson. Yes, sir.
    Senator Whitehouse. I have two topics on that. One is quite 
narrow and specific. DHS is the lead Federal agency that is 
responsible for working with State and local governments and 
State and local law enforcement in a variety of ways, but 
specifically around protecting their information systems. And 
it appears that there has been a little spate of recent cyber 
attacks on local law enforcement agencies, and across a lot of 
this country, small, rural police departments do not have a lot 
of cyber resources available to them. They do not have even in 
some cases full-time information officers.
    It strikes me that, both from a point of view of kind of 
creating embarrassment and upheaval in some of the goals of 
some cyber hackers, or from compromising law enforcement and 
emergency response, a more serious intent, small police 
departments make a particularly appealing target. And I wonder 
where within DHS we can work together on trying to make sure 
that they have both the resources and the threat awareness and 
the knowledge that they need to protect themselves, because if, 
say, CryptoLocker takes out the cyber resources of a small 
department, including current law enforcement records and 
police reports and things like that, it can create a very 
unfortunate situation.
    Secretary Johnson. Well, first of all, I agree with your 
observation about State and local government. I also know that 
more and more Governors and mayors are asking me about this 
issue. Governor Snyder of Michigan comes to mind, for example. 
He and I have talked about this several times, and I know that 
more and more State and local governments have cybersecurity 
advisers devoted to this. I believe----
    Senator Whitehouse. Which NYPD can do.
    Secretary Johnson. Right. Well----
    Senator Whitehouse. Which the Boston Police Department can 
do.
    Secretary Johnson. Oh, yes.
    Senator Whitehouse. But when you get down to little police 
departments, I do think that we need to figure out how we 
organize a common resource that can have their back and be 
their distant early warning system in a better way than we 
presently do.
    Secretary Johnson. My cybersecurity experts, if they were 
sitting here, I am sure they could tell you about the ways in 
which we do work with State and local law enforcement. I 
suspect, but I do not know, through our grantmaking ability we 
may be able to also support the development of cybersecurity 
capability in these governments. But I do agree that it is 
something that is an emerging threat that we all need to focus 
on.
    Senator Whitehouse. I look forward to continuing to work 
with you on this. This hearing is not the forum for that, but I 
do think it is important, and I think that there are a lot of, 
as you said, mayors and Governors around the country who are 
seeing that this is a particularly unfortunate target to 
emerge, and a particularly vulnerable one.
    The second cyber topic has to do with how we structure our 
cyber enforcement response. I want to first of all commend what 
you, what the Department of Justice, what the FBI all do. We 
are throwing a lot of resources at the problem. We have immense 
talent being thrown at this problem. We have had some really 
terrific new steps specifically by the Department of Justice 
against the PLA hackers and against the two big botnets. So 
there is great stuff that is going on. But I am not convinced 
yet that we are doing the thinking that we need to be doing 
about what our cyber enforcement structure needs to look like 5 
years out and 10 years out. And we are so engaged in today's 
hackers and trying to warn businesses who is coming through the 
windows and doors at them that there really is not, in my view, 
a very comprehensive process of what this needs to look like. 
And this is a threat in transition. It is a growing threat. And 
I would like to hear your thoughts on the long-term 
preparedness and the review of what our structure should be to 
address this threat.
    Secretary Johnson. Well, first of all, the Secret Service 
has tremendous capabilities in the investigation of cyber 
crime. We do it on a routine basis. The Secret Service, for 
example, is the lead law enforcement agency when it comes to 
the Target Stores episode. I have had conversations with Jim 
Comey, whom I have known for 25 years, since we were AUSAs 
together, and others in the intelligence community and also 
General Alexander, who has recently retired, about how we 
answer this exact question. And my view is that--and I know all 
these people, either from my AUSA days or from my DOD period. 
And in my view, if we can sit down together--and this is not a 
complicated conversation among the three or four of us 
component heads--to say, all right, how are we divvying this 
up? What is our strategy going forward? When does the FBI get 
involved? When does the Secret Service get involved? And when 
does it become a matter for our national security intelligence 
resources for our Government?
    We can develop a common strategy, and I do not believe it 
is very hard. I do not believe it is complicated, and it is one 
of the items on my agenda.
    Senator Whitehouse. I will follow up with you on that.
    Our next Senator recognized is Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Well, we are having a humanitarian disaster. There is no 
doubt about that. And the humanitarian disaster is caused by a 
legal disaster. Your leadership and the President's leadership 
has failed to send a clear message throughout the world that 
you can only come to the United States lawfully; you cannot 
come unlawfully. In fact, you send the message that conveys 
just the opposite. It is unbelievable that the top law 
enforcement officer of our country is doing such a thing.
    You have been sued by your own officers, or at least your 
predecessor, for not allowing them to follow their oath to 
enforce the law. And under your leadership, it seems to have 
gotten worse, Secretary Johnson. You and I talked about it. I 
expressed my concern. I thought maybe it would get better, but 
actually things have gotten worse. And we are seeing this flood 
of young people, and it is just tragic. It should not be 
happening.
    The first thing a law enforcement officer should seek to do 
is to create a climate that reduces lawlessness, not encourage 
it. You do not want to be in a position of having to arrest 
more people and deal with more people. You want to not have it 
happen. It is just amazing to me.
    I want to push back a little bit for our Chairman talking 
about excessive force and violence. I wish you would push back 
a little harder, Mr. Johnson. But this is the kind of thing 
that is happening to your Border Patrol agents every day. They 
are being attacked with vehicles, they are being shot, and they 
are being pummeled with large rocks. One picture in here is 7 
inches in length of the rock that hit an agent. So I would 
offer that for the record. Lawlessness begets----
    Senator Whitehouse. Without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Sessions. Lawlessness begets violence. I know in 
San Diego a number of years ago, 20 or more years ago, they 
built a fence, and there was violence and lawlessness and 
drugs. And, afterwards, both sides of the border are 
prospering, and the lawlessness has ended at that time, and we 
have done better.
    Let me just ask you this: Have you--you did not say in your 
testimony today and nothing I have seen in your reported 
statements is a clear message to the world they must not come 
illegally to America. Have you said that anytime recently?
    Secretary Johnson. I have told my staff that we need to 
consider all options to deal with this situation. I rule 
nothing out that is lawful. I want to know about every option, 
and I want to consider every option, Senator.
    Senator Sessions. Well, here in an El Salvador newspaper, 
the headline is: ``Extension of suspension of student 
deportations.'' In other words, you extend the suspension of 
deportations--Secretary Johnson. It says, ``Almost all agree 
that a child who crossed the border illegally with their 
parents or in search of a father or a better life was not 
making an adult choice to break our laws and should be treated 
differently from adult violators of the law.''
    It goes on----
    Secretary Johnson. I still agree with that.
    Senator Sessions. It goes on to say, ``The administration 
of President Obama has launched the program suspending 
deportations.''
    Here, another Central American news outlet, the first 
paragraph says, ``Central Americans who illegally cross the 
border into Mexico say they are arriving at their final 
destination, that U.S. immigration officials are allowing 
Central American women and children to freely enter the 
country.'' Is that correct or not?
    Secretary Johnson. I do not believe that is correct, no.
    Senator Sessions. Well, this is what the lady said. They 
interviewed her. This is a Spanish publication. ``It was easy 
to get there. I only had to walk 15 minutes with my daughters, 
and I turned myself in to Immigration but was told that U.S. 
Immigration''--``I was told that U.S. Immigration was letting 
`lots of women with kids into the United States.' ''
    La Prensa in El Salvador, ``Obama announced a unified and 
coordinated Federal response to this program to provide 
humanitarian relief to children affected, including 
accommodation, care, medical treatment, and transport.'' But he 
did not say--and you have not even said this day right here in 
this Committee--``Do not come. It is unlawful to come. You 
cannot come to the country without lawful permission.''
    So I ask you again, Are you prepared to say that to the 
whole world?
    Secretary Johnson. I am prepared to say that a parent 
should not send a child across our southwest border. It is 
illegal----
    Senator Sessions. Well, can a parent bring a child with 
them?
    Secretary Johnson. And it is dangerous.
    Senator Sessions. Because it is dangerous.
    Secretary Johnson. I said because it is illegal and it is 
dangerous.
    Senator Sessions. And will you pledge to enforce the law 
and interdict and send back people who come to the country 
unlawfully?
    Secretary Johnson. I have pledged numerous times to enforce 
the law, Senator. I do it every day.
    Senator Sessions. Well, you did not say it in your opening, 
and you have not been quoted in the papers as saying that.
    Secretary Johnson. I enforce the law every day, Senator. We 
are deporting people, according to last year's numbers, at a 
rate of over 1,000 a day.
    Senator Sessions. Well, you are familiar with the memo from 
Deputy Border Chief Ronald Vitiello, I suppose, on May 30th of 
this year, your own Deputy. Could I ask--you went over about to 
a minute and 12. It is 50 seconds over now. Could I ask for one 
additional minute, Mr. Chairman?
    This is what Mr. Vitiello wrote, your own Deputy: ``If the 
United States Government''----
    Secretary Johnson. Is that a draft or is that----
    Senator Sessions [continuing]. ``Fails to''--you probably--
that was his draft. Yes, you probably altered it or had it 
altered. He said, ``If the Federal Government fails to deliver 
adequate consequences to deter aliens from attempting to enter 
illegally the U.S., the result will be an even greater increase 
in the rate of recidivism and first-time illicit entries. 
Releasing other than Mexican family units, credible fear 
claims, and low-threat aliens on their own recognizance, along 
with facilitating family reunification of unaccompanied alien 
children in lieu of repatriation to their country of 
citizenship, serve as incentives for additional individuals to 
follow the same path.''
    He goes on: ``To stem the flow, adequate consequences must 
be delivered for illegal entry into the United States and for 
facilitating human smuggling. Either as a direct member of an 
illicit alien-smuggling organization or as a private 
facilitator, these consequences must be delivered both at the 
border and within the United States.''
    Do you agree with that?
    Secretary Johnson. As I said in my opening statement, to 
deal with the situation in South Texas, we have had to surge 
resources that are normally devoted to other tasks. We are now 
calling upon the entire Federal Government to address that 
situation so that my Border Patrol agents can go back to 
patrolling the border.
    Senator Whitehouse. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Whitehouse, 
and thank you very much, Secretary Johnson, for your work. I 
was just down in Mexico with Senator Heitkamp and Cindy McCain 
on that very important issue of sex trafficking as well as 
heroin trafficking, met with the head of the Federal police, 
met with the attorney general, and we talked about this issue 
at length. And I also have appreciated the efforts that Mexico 
is starting to make, which is very necessary to this, which is 
to secure their own southern border in addition to the work 
that has been going on to try to go after the drug cartels and 
the capture of El Chapo and some of the other work. But there 
is clearly work to be done.
    But I wanted to take you farther north because one of the 
things that I certainly learned when I was down in Mexico is 
one way out of this violence and the things that are going on 
down there is to have a stronger North American economy, what 
we are calling ``A New Day in North America,'' which means more 
and more regional coordination between Canada, America, and 
Mexico. As we compete with countries like China, I think this 
is a major part of our economic growth to bring more jobs to 
America.
    So every single day we have 300,000 people crossing the 
U.S.-Canadian border. Every single day two-way cross-border 
trade between our nations amounts to $2 billion a day. They are 
our major trading partner, Canada, $2 billion a day in trade. 
Three-quarters of Canada's goods are now sold in the U.S., and 
in turn Canada is the number one buyer for goods produced in 36 
out of 50 States in this country. Yet we have some border 
issues with Canada, and they are not the border issues we have 
been hearing about. They are border issues about making it as 
easy as possible to facilitate the movement of people and goods 
with our number one partner--our number one partner in dealing 
with the Ukraine, our number one partner when dealing with 
security. And I know you understand this.
    One of the things, having just been in Canada this weekend 
with Senator Blunt and Senator Crapo and Senator Sessions, as 
well as Senator Stabenow, we as part of the 
Interparliamentarian Group identified some infrastructure 
issues on the border. And over the past 2 years, U.S. Customs 
and Border Protection has received authorizations from Congress 
to initiate pilot programs to enter into public-private 
partnerships and actually accept private donations to help 
improve the efficiency of border crossings.
    I am concerned that these border crossings are--right now 
the grants have been given solely on the southern border, and 
we have--for instance, the land port of entry in International 
Falls, Minnesota, was built in 1993, and it has been deemed in 
need of replacement by the CBP, the Customs and Border 
Protection, and the General Services Administration.
    We are really interested in this public-private 
partnership. Obviously with the energy and the oil and 
everything else coming from Canada, as well as the trade and 
the agriculture trade going on, we think this is a smart 
investment in America's economy.
    Could you talk to me about why these programs are only in 
place on the southern border? And can you commit to adding 
northern border sites for these partnerships as soon as 
possible?
    Secretary Johnson. Yes. A big part of my job, 
notwithstanding everything we have talked about so far in this 
hearing, is promoting lawful trade and travel, particularly in 
North America. I have had conversations along with our 
President, with the Mexican President, with the Prime Minister 
of Canada at the summit that took place in Mexico in February, 
I believe it was, or March. I have had conversations with 
Minister Blaney, Minister Raitt in Canada, about facilitating, 
promoting trade and travel. It is a big part of this 
administration's agenda to develop trusted traveler programs. 
The President signed an Executive order on a single path for 
export-import purposes into our Federal agencies. And I have 
personally visited Detroit and Port Huron to----
    Senator Klobuchar. You are aware of the Windsor Bridge 
issue, which is another problem.
    Secretary Johnson. I have walked on the Windsor Bridge.
    Senator Klobuchar. We are close to getting that resolved.
    Secretary Johnson. And I have seen the tractor-trailer 
backup on the bridge in Port Huron. And I have seen the 
situation in Detroit, and I believe that we need to expand the 
customs plaza capability in Port Huron, for example, and I 
think we need to build a customs plaza in Detroit one way or 
another. And public-private partnerships I think are a good and 
creative way that we should explore. We need to get this done. 
I am impressed by the fact that the Canadians have stepped up 
to this, and----
    Senator Klobuchar. They have completely stepped up to help 
pay for that bridge and are really interested in this. They are 
doing a lot with public-private partnerships for their own 
infrastructure and are interested in this idea, and I really 
think we cannot just be putting them at the southern border. 
This is not as much as I said about security as it is about 
facilitation.
    I have one last question. You have probably heard about 
those current plans call for the current USCIS field office in 
Bloomington, Minnesota, to move to a location that is 3 miles 
from the nearest public transportation option. USCIS field 
offices provide critical services, as you know, immigration 
services, and I think you heard what happened here. They have 
apologized. The GSA made a major mistake. They saw a sign for a 
bus, and they thought it was a public bus, and there is really 
no bus service to that area.
    They have been helpful in meeting with us, and could you 
talk about it, as we are looking at legislation to make sure 
that USCIS field offices are accessible for the immigrant and 
refugee communities that they serve, what your views are on 
this? And we are currently trying to see if there is any way to 
dial this back, because it really was a mistake.
    Secretary Johnson. I have talked to Senator Franken about 
this. I am aware of the issue with this particular office, and 
I agree that people should be encouraged to go to CIS offices 
for just about every reason imaginable. So I agree they need to 
be accessible one way or another. And I will look at this 
particular situation.
    Senator Klobuchar. Okay. I understand. And, again, I 
appreciate your good work. Thank you.
    Secretary Johnson. Thank you.
    Senator Hirono [presiding]. Senator Cornyn.
    Senator Cornyn. Thank you.
    Mr. Secretary, good morning. Good to see you.
    Secretary Johnson. Good morning.
    Senator Cornyn. Would you agree with me that the 
transnational criminal organizations that traffic human beings 
into the United States do not discriminate between economic 
migrants and people who they traffic for sex or other illegal 
purposes? Would you agree with that?
    Secretary Johnson. That sounds right. I am not sure I know 
the answer to that one. It sounds right.
    Senator Cornyn. Well, they are in the business to make 
money.
    Secretary Johnson. They are in the business of making 
money, yes, sir.
    Senator Cornyn. Guns, drugs, people, children, adults. They 
do not really discriminate. And I think there is this 
misconception that somehow there is good illegal immigration 
and bad illegal immigration in the sense that somehow these are 
separate pipelines, when, in fact, my impression is, to my 
knowledge, it has now been taken over essentially by 
transnational criminal organizations, largely the cartels in 
Mexico. And all of the horrors that you know and that I know 
and that others know that these unaccompanied children are 
subjected to, they are subject to the tender mercies of these 
traffickers.
    So I want to really ask you about two things. You came to 
my office recently after doing some investigation of the 
detentions along the U.S.-Mexican border, and I appreciate the 
acknowledgment that you recognize this is a national security 
issue as well. In fact, 414,000 people were detained at the 
southwestern border last year from more than 100 different 
countries. Do you agree with those figures?
    Secretary Johnson. Yes. As you and I have discussed, on the 
southwest border and the Rio Grande Valley in particular, we 
are seeing an increasing number of illegal migrants coming from 
virtually all over the world, including other continents. And 
it is an increasingly diverse population.
    Senator Cornyn. Well, I appreciate your acknowledgment of 
that and your investigation of the facts.
    Let me turn now to the humanitarian crisis of unaccompanied 
minors. There have been several references to the internal 
summary prepared by agents in the field concerning the recent 
surge of unaccompanied minors. When asked why they chose at 
this time to migrate, an overwhelming majority said it was to 
take advantage of a new U.S. law that grants a free pass to 
unaccompanied children and female adults traveling with minors.
    Now, it appears the free passes that they are referring to, 
permisos, are the notice to appear. In other words, when people 
are detained, they are given a notice to appear at their court 
setting. I am told by Border Patrol that 90 percent of them 
never show back up. But the high percentage of subjects 
interviewed stated that their family members in the U.S. urged 
them to travel immediately because the United States was only 
issuing immigration free passes until the end of June 2014.
    So you previously acknowledged that there is no legal way 
to enter the United States--there is no free pass under the 
law. Is that right?
    Secretary Johnson. Well, there is a legal way to enter the 
United States. The migration we are talking about here is not 
legal.
    Senator Cornyn. Thank you for--you are right. Thank you for 
correcting my statement. I meant there is no way for these 
unaccompanied minor children to legally enter the United States 
in the way that the 47,000 that have been detained since 
October have been doing.
    Secretary Johnson. That is correct, yes.
    Senator Cornyn. Okay. And so I would just suggest to you 
there is this perception that the executive branch of the 
Federal Government is not enforcing the law because of talks 
about easing deportations--or ``repatriations'' I think is the 
nomenclature you use, and the perception is that there are no 
consequences to illegally entering the United States. And if 
that is the perception, the flood of humanity will continue and 
contribute to this humanitarian crisis that we have been 
talking about this morning.
    I would just suggest to you that, as you deliberate these 
matters and as you consult with Congress and the President, 
this is one of the biggest obstacles to immigration reform 
because if the perception is both domestically an in other 
countries that the Federal Government is not committed to 
enforcing our own laws, then this flood will continue and the 
divide and the distrust will grow even more.
    One final point. If this entry of 47,000 children who have 
come unaccompanied who have been detained since October is not 
legal under U.S. law, I do not understand the argument that if 
we just somehow pass the Senate immigration bill that it would 
have a positive impact on this humanitarian crisis. You are not 
suggesting that we need to pass some other law that would have 
prevented this humanitarian crisis, are you, sir?
    Secretary Johnson. Well, first of all, the document you 
read from, I have never seen. It is supposedly a draft 
document. I do not know that I agree with the assessment there.
    Senator Cornyn. Well, they are interviews with 230 of the 
people detained coming across the border.
    Secretary Johnson. I have never seen the document so----
    Senator Cornyn. Will you take a look at it and tell us 
whether you think it is authentic?
    Secretary Johnson. Enough people have referred to it that I 
am sure at some point soon I will take a look at it.
    Senator Cornyn. I hope so.
    Secretary Johnson. I am not sure I agree that that is the 
motivator for people coming into--for the children coming into 
South Texas. I think it is primarily the conditions in the 
countries that they are leaving from.
    I do believe that if comprehensive immigration reform is 
passed, the uncertainty that may be existing in people's minds 
about our law gets resolved, and it will be clear to people 
that the earned path to citizenship that is being contemplated 
in the Senate bill only applies to people who came here before 
year-end 2011. The same thing with DACA, DACA refers to people 
who came here in the year 2007. It does not refer to people who 
came here today or yesterday. So the perception I do not think 
is correct.
    And I also know that anyone who is apprehended on the 
border is a priority for removal. They are Priority 2.
    Senator Cornyn. Mr. Secretary, this is my last question or 
statement. I would suggest that as a person who believes that 
we need to pass a bill to fix our broken immigration laws, the 
single biggest impediment to collaboration between Congress and 
the executive branch to get that done--we may not agree about 
the details, but we all, I think, agree on the need to get to 
that solution. The biggest impediment is the perception that 
the President and this administration will not enforce whatever 
laws that Congress were to pass. So that is a real problem, and 
in its instance it has helped induce this humanitarian crisis 
and this flood of unaccompanied children that is very dangerous 
to them and their families and created a real crisis.
    Thank you for your response to my questions.
    Senator Hirono. Before I call upon Senator Coons, I would 
like to just ask everyone to be aware of the time limits for 
our questioning because there are people who are waiting.
    Senator Coons.
    Senator Coons. Thank you, Senator Hirono, and thank you, 
Secretary, for your service, for your leadership of the 
Department, and for your testimony here today.
    I want to touch on a number of different issues: ag 
inspections at the border and at ports, cyber crime and its 
cost to the U.S., and a number of issues that relate to 
deportation practices. Let me start with those, and these are 
issues we have discussed before, and some of these are 
questions I have asked your predecessor, but I just want to 
make sure I am getting an appropriate update on where we are.
    First, in deportation proceedings, aliens are not routinely 
provided what is called the ``A-File,'' but instead have to 
file FOIA requests, and this extends the cost, the difficulty 
of deportation proceedings without affecting the outcome.
    Has DHS begun to routinely provide A-Files to aliens facing 
deportation?
    Secretary Johnson. Senator, you are correct. That is 
something you and I have discussed previously. I do not know 
the status of that issue right now, but I can get back to you.
    Senator Coons. I have also discussed with you and your 
predecessor lateral repatriation, which is a polite way of 
describing nighttime deportations that often put children and 
women at risk, put particularly vulnerable folks facing 
deportation into dangerous locales at very difficult times into 
very bad circumstances, and I think it violates basic human 
rights and some of our international agreements. And I wondered 
if DHS has implemented procedures to ensure that deportations 
are done in a manner that does not jeopardize the lives of 
repatriated migrants.
    Secretary Johnson. We are actually working with the Mexican 
Government right now on that issue. This has been the subject 
of discussions between our two governments. Often it involves a 
matter of logistics, coordination, and so forth. And we also 
have a policy going back to 2004 that we not separate families 
or remove vulnerable population at late-night hours, which I 
believe is a good policy and I intend to reiterate it.
    Senator Coons. Well, thank you. I have heard from the faith 
community, from advocates, that they continue to see 
significant impact on vulnerable families due to the policy, 
and it has not had an appreciable positive impact.
    Last, on the list of sensitive locations for enforcement 
actions, courts are not currently on that list, and I have 
received to me some concerning reports that immigration 
enforcement which occurs right at or around courthouses deters 
women from seeking protection from abuse orders or folks who 
are applying for relief from landlords. And I just wondered 
what steps DHS has taken to assess the appropriateness of 
enforcement actions taken at courthouses and to ensure that 
they are only taken in exceptional circumstances where there is 
some case-specific justification rather than in the broader 
range of cases that deters access to justice and deters some of 
the important things I referenced, prevention of domestic 
violence.
    Secretary Johnson. You are correct that courthouses have 
not been on the sensitive list. I know that some months ago ICE 
determined to put courthouses in a special category deserving 
of some sort of special treatment. I agree that courthouses are 
special places in the nature of a church, but I can readily see 
for reasons of public safety why any law enforcement officer 
would feel compelled to take action with regard to an 
individual at a courthouse, and I have asked our folks to 
better develop that exception with regard to courthouses.
    Senator Coons. Thank you, Mr. Secretary.
    We have also talked about Customs and Border in terms of 
overtime for inspections that are related to agriculture. The 
Port of Wilmington and many other ports have folks who would 
like to pay overtime so that when whole shiploads of produce 
arrive, they can get inspections in a timely fashion. And this 
is subject to a very complicated interagency budgetary issue. 
My understanding is that ag--we have made progress in terms of 
promulgation of the relevant regulations that would now allow 
fee increases for overtime services. Is this something that, to 
your understanding, CBP ag inspectors are able to work with the 
Department on and you are hopeful we are going to make some 
progress before this very busy upcoming fruit season?
    Secretary Johnson. I believe so.
    Senator Coons. That would be great.
    A last question, if I might, on cyber crime. Cyber crime is 
an area of primary focus for you and for the Department. It 
causes enormous costs, negative impacts on our society every 
year. I recommend to you the role that the International Guard 
can play in terms of providing a qualified work force that is 
able to be a resource both for national security purposes and 
for State and local preparation reasons. I just wondered how 
the National Guard model fits into the Department strategy, 
your strategy, to meet the threat posed by cyber crime and 
potential cybersecurity threats.
    Secretary Johnson. The International Guard.
    Senator Coons. Yes, the 166th Network Warfare Squadron 
would welcome a visit any time in New Castle, Delaware.
    Secretary Johnson. Okay. That is a worthwhile inquiry. I 
will look at that, sir.
    Senator Coons. Thank you, Mr. Secretary. I look forward to 
following up with you on all of these issues.
    Secretary Johnson. Thank you.
    Senator Hirono. Senator Flake.
    Senator Flake. Thank you. I appreciate you being here. I 
appreciate what you are doing.
    My questioning comes, as you know, this comes from someone 
who is supportive of immigration reform. As a Member of the 
Gang of Eight, I am proud of the legislation we passed. I hope 
that similar legislation or some legislation can pass the House 
and we can get this done. But I just want to follow up on some 
of the questioning that some of my colleagues have done about 
the motivation of people coming. When you look at the numbers, 
it is just staggering, as you have said, and it has created a 
humanitarian disaster. When we involve FEMA, as you mentioned, 
for something like this, this denotes a disaster. And we ought 
to be looking at the causes of it. And we know some of the 
causes. As you explained, the economic situation in these 
countries, the drug activity and cartels and unsafety and gangs 
certainly leads to it.
    But to reject out of hand, which you seem to be doing, that 
the perception of lax enforcement is not a motivator in this 
regard I think is naive at best and very destructive at worst. 
And when you look at the numbers, these are OTM apprehensions 
or other-than-Mexican apprehensions, mostly from the three 
countries that we talked about: October of last year, 14,000 
during that month: November, 14,000; December, 14,000; January, 
12,000; February, 16,000. So relatively straight. And then 
comes March, right around the time of the deportation review 
that was undertaken by the administration, word like this 
spreads, and word spreads that there will be a review of 
deportation.
    And then we look, March OTM--remember, it stayed steady at 
around 14,000 until March. Then March, 24,000; April, 26,000; 
May, 38,000. Can you just allow a little that it might--there 
might be a perception that lax enforcement might be some 
motivator for people to come here?
    Secretary Johnson. I cannot control people's perceptions, 
and I do not have a categorical sense of people's perceptions 
in Central America. I do believe, Senator, that what is 
principally motivating this migration are, as you noted, the 
conditions in the Central American countries. I also believe 
that people are aware that when their kids come into this 
country unaccompanied, we are required by law to give them to 
HHS, and HHS is required by law to act in the best interests of 
the child, which very often means reuniting them with the 
parent. I think they know that. That is what the law requires 
us to do.
    Senator Flake. I think they do as well, and when you look 
at the interviews, you read the interviews that are being 
conducted and you see the statements of people saying they are 
waving down helicopters when they see a Federal helicopter, 
waving them down, rushing to Border Patrol agents, and saying, 
``Take me.'' There is a perception--there is a perception of 
lax enforcement that will allow them to get a foothold here. 
And that, I would submit, is one of the motivators, and a big 
one, in why we are having such a massive increase in 
unaccompanied minors and people from these countries that we 
are talking about.
    I do not think this is a blow to your ego, but what you say 
on these matters in those countries to these Ambassadors or to 
media outlets in Guatemala or El Salvador and Honduras does not 
matter as much as what the President says. And it would be 
extremely helpful, in my view and the view of many--and Senator 
McCain and myself just sent a letter to the President today 
pleading with him: Make a statement. Let people know that those 
who are coming now are subject to deportation, that these--that 
DACA and these other rules that may be reviewed will not apply 
to people coming now. Do you think that that would be a good 
idea for the President to make such a statement and for us to 
follow with public relations efforts in these countries?
    Secretary Johnson. Well, first of all, nothing anymore is a 
blow to my ego.
    [Laughter.]
    Secretary Johnson. I do think that a robust public 
relations campaign in some form is vital. I do agree with that.
    Senator Flake. All right. Well, you agree----
    Secretary Johnson. Whether it is the President or----
    Senator Flake [continuing]. That it needs to start with the 
President----
    Secretary Johnson. Officials from their own countries or 
what have you, I do believe that a robust, aggressive public 
relations campaign needs to be part of our strategy.
    Senator Flake. I hope that is the case, and I have many 
questions about what is going on in Arizona. I just was struck 
by one thing you said. You said that you hoped that the Border 
Patrol can go back to patrolling the border, and that is 
extremely disturbing to those of us on--you know, in border 
States, that how many Border Patrol agents are being pulled 
from Border Patrol to processing unaccompanied minors or 
others. What percentage of the force is being pulled away from 
those duties in Arizona and Texas?
    Secretary Johnson. I do not have an exact percentage. I 
know that we have had to surge resources to process these kids. 
Plainly, there are still plenty of people on the border 
conducting Border Patrol activities, and I believe that with 
the added resources we are getting from other agencies, these 
folks are able to return full-time to their normal 
responsibilities.
    Senator Flake. Let me just close saying I hope that the 
President in particular, and you as well, will make such a 
statement, continue to make such a statement, and then launch a 
public relations effort in these countries, letting them know 
that people who come here will be subject to deportation, that 
they will not be able to participate in either the policies 
that the administration has pursued or the legislation that 
this body, the Senate, has passed and that the Congress will 
hopefully pass.
    Thank you for your work.
    Secretary Johnson. Senator, if I may, one other thing I 
wanted to add, Senator Flake. I remember from the QFRs you sent 
me in the confirmation process, the statements of your 
constituents, the ranchers. So one of the first things I did 
when I got into office is I went to visit them in Arizona, and 
I think it is fair to say we had a good visit, good 
conversation. I wanted to understand their border security 
concerns, so I went down there, and they are a terrific bunch 
of people.
    Senator Flake. Well, let me just say they appreciate that. 
They told me that, and I appreciate, and my office does, the 
manner in which you have answered questions. This is a bit of a 
departure from what we have seen before, and I am very happy to 
see that and have been pleased with your response and the 
seriousness with which you take this job. So thank you.
    Secretary Johnson. Thank you.
    Senator Hirono. Thank you, Mr. Secretary. Clearly, all of 
us are concerned about the influx of unaccompanied minors 
crossing the border, and it is a multifaceted problem with no 
easy solutions leading to a Level 4 condition that you have 
declared.
    I would like to ask you in the coming weeks to work with me 
and other colleagues who are interested in enabling us to 
travel to see some of these facilities. I think that would 
enable us to really better understand and grasp the enormity of 
this crisis situation.
    Turning to prosecutorial discretion, I am looking at your 
Morton memo which enumerates some 19 factors in exercising 
prosecutorial discretion regarding numerous immigration 
procedures, including deportation. And of the 400,000 or so 
deportations that DHS is carrying out each year, do you have 
data on how many of these are people who are being deported who 
could receive prosecutorial discretion, exercise of the 
prosecutorial discretion based on things such as family ties or 
community ties?
    Secretary Johnson. There are ways to make that statistical 
assessment, and we are in the midst of doing that right now as 
part of my review of our enforcement policies. I think that the 
data in years past has not been as clear as it could be. One of 
the things I would like to do is to make the data clearer, be a 
little more forthcoming each year, and correlate the data to 
the individual priorities in the Morton memo so that we all 
have a clearer sense for whether somebody is being removed who 
is a Priority 1 or Priority 2 or Priority 3. So I think we can 
do a better job there.
    I also think we need clearer guidance, so when you say the 
Morton memo, for example, it is unclear to me whether you are 
referring to the March memo or the June memo of 2011 or a whole 
other series of memos that have----
    Senator Hirono. Well, there are various iterations of 
enabling your agents pretty much across the board to exercise 
prosecutorial discretion, and so I would really like to 
understand, of the 400,000 or so deportations, you know, who 
actually are being deported, because, for example, I get 
concerned when recent reports indicate that the ICE field 
office in Detroit is placing people with strong family ties, 
without any criminal record, into deportation proceedings. So 
it is kind of reminiscent of what has been coming out regarding 
the Veterans Administration. It is one thing to have a policy 
directive such as the Morton memo, but it is another as to what 
is actually going on out in the field and the exercise of that 
discretion.
    I recognize that the Morton memo also says that these are 
guidelines and that your agents have--you know, can prosecute 
people who are here illegally. But I think in terms of scarce 
resources and your establishment of priorities of how we ought 
to be enforcing our law, it would be good for us to have that 
kind of breakdown from you. So I would like to request that.
    Secretary Johnson. Well, one of the things that I have 
learned from my Department of Defense experience is clear 
guidance is indispensable. If you do not issue clear guidance 
to the field, then how it is implemented is not going to look 
at all like what you intended. So DOD, whenever they issue new 
guidance, they always socialize, train it to the field down the 
chain of command. And so I have spent a lot of time talking to 
our work force about how to better implement policy changes 
that are issued in Washington, how to socialize them, and I am 
determined to do a better job in that regard.
    Senator Hirono. Good. My understanding is that under the 
DACA program some 500,000 young people have come forward to 
participate, and many of them are now in the renewal process, I 
believe, because DACA has to be renewed every 2 years. So I 
understand that your Department is suggesting that applicants 
apply for renewal up to 4 months before the expiration of the 
2-year term, so I know that that is to give them enough time so 
that there is no gap which would subject them to deportation 
and other kinds of action.
    So what is your Department doing to ensure that renewals 
are handled expeditiously? And what is your Department planning 
to do if processing delays lead to lapses in the status?
    Secretary Johnson. We have been preparing for this for some 
time now, and one of the things we are doing is we are not 
requiring individuals to submit all the same documentation they 
submitted 2 years ago unless there has been some new event in 
their life like a criminal conviction or something. But we are 
not requiring individuals to go back and submit the very same 
paperwork all over again. And you are correct that we had over 
600,000 applicants 2 years ago; about 500 applications were 
granted. That is a large number of people that we were able to 
get through the system. And so I believe that in the renewal 
process, you know, that good work will continue.
    Senator Hirono. I would like to stay in touch with you 
regarding how that is going, because half a million, that is a 
lot of people. Thank you very much.
    It is Senator Lee's turn.
    Senator Lee. Thank you, Madam Chair, and thank you, 
Secretary Johnson, for joining us today.
    Secretary Johnson. Nice to meet you.
    Senator Lee. And thank you for your efforts on behalf of 
our country. You have got a tough job.
    One attribute of this administration that has caused a lot 
of people concern is a tendency that some have observed within 
the administration to, in effect, modify existing statute by 
Executive fiat, sometimes through Executive order, other times 
through Executive memorandum within a particular department.
    Now, as you know, in Youngstown Sheet & Tube v. Sawyer, 
Justice Jackson came up with this three-part analysis that is 
pretty simple and can be applied to a lot of circumstances. It 
was reiterated by the Court again in Dames & Moore v. Regan, 
and the basic analysis is that in Category 1, when the 
President acts pursuant to authorization by Congress, his power 
is said to be at its zenith. His power is said to be at its 
twilight, in sort of a twilight zone, where it can be a little 
bit unclear when the President acts either in the absence of a 
particular congressional authorization or in the absence of a 
particular congressional prohibition. The President's 
authority, Justice Jackson explained, is at its lowest ebb when 
the President acts in a manner that is inconsistent with--is 
prohibited by Congress in a statutory directive.
    Now, using theories of prosecutorial discretion, the Morton 
memoranda that were described earlier in the DACA program have 
been criticized as an effort to mount a de facto legislative 
implementation of certain legislative proposals that were 
considered and rejected by Congress, that Congress has not ever 
adopted, because, as implemented, they effectively, I am told, 
are telling agents if an immigrant meets these certain 
qualifications, if these characteristics are present, we do not 
want you enforcing the law.
    Would you agree that if that is the case, to the extent 
that is the case, assuming hypothetically that it could be the 
case, where would that put us in Justice Jackson's three-part 
analysis?
    Secretary Johnson. First of all, I wrote a paper about 
Dames & Moore in law school. My recollection is that it was a 
decision of the Supreme Court in 1979 or 1980 concerning Iran--
--
    Senator Lee. 1981. Close.
    Secretary Johnson. Yes. What you laid out I have quoted 
often when I was the senior lawyer for the Department of 
Defense in the war powers context. Presidents' war powers are 
at their zenith when he is acting--committing the military 
pursuant to statutory authorization, and so we applied and 
construed the AUMF a lot while I was the General Counsel of the 
Department of Defense.
    I see the Morton memo--and I believe that the Morton memo 
guidance could be clearer, but I very much believe in the 
notion of prosecutorial discretion. And in my conversations 
with the ERO work force, we have all agreed that they should be 
devoting their time and effort and resources that they have to 
going after enforcing against the worst of the worst. And the 
question is: How do you do that? How do you find the worst of 
the worst? And where do you draw the line?
    Senator Lee. And, of course, that is why prosecutorial 
discretion is necessary, because we have scarce Government 
resources. You cannot expect people to do it all.
    Secretary Johnson. Correct.
    Senator Lee. Normally, as you know, based not only on the 
position you now hold and the one you have held in the 
Department of Defense, but also your former position as an 
Assistant U.S. Attorney earlier in your career, prosecutorial 
discretion usually means discretion, and it leaves a 
significant amount of discretion in the hands of the prosecutor 
to figure out where best to allocate those resources.
    Secretary Johnson. Or his boss.
    Senator Lee. Right, or the prosecutor's boss. But where you 
have got a directive, assuming there is such a directive--as I 
have been told, the directive is being carried out in this 
fashion. Where you have got agents on the ground being told, 
``Do not enforce the law in this entire category,'' I think 
that is a little bit different than prosecutorial discretion, 
isn't it? Isn't that a mandate not to enforce the law?
    Secretary Johnson. Well, when I was an AUSA in the Southern 
District of New York in 1989, 1990, 1991, we used to make an 
effort to get to at least 1,00 indictments a year, and there 
would be a big push toward the end to try to get over 1,000. 
You could do that very easily if you prosecuted a lot of 
marijuana cases, but we were not focused on marijuana. We were 
focused on the crack epidemic going on in New York City. And if 
we had focused on marijuana cases, we would get to 1,000 
indictments by the month of March probably. But that would not 
be the most effective enforcement of our Federal narcotics 
laws.
    And so I think that that principle translates into the 
removal enforcement context, and I believe very much that we 
can and we ought to be able to do that. The question is how and 
where do you draw the lines and where do you prioritize and 
where you do not. I do not think that that necessarily amounts 
to and I do not believe it has amounted to simply declaring off 
limits large categories of people.
    Senator Lee. I understand the point, and I see my time has 
expired, and so I am going to need to wrap up here. But my 
concern is that when you have a national memorandum with 
national impact and when agents, I am informed, are being told 
on the ground, ``Do not enforce the law where these 
circumstances are present,'' that is meaningfully, legally, 
constitutionally different than what you have described, where 
an individual office has only so many prosecutors or so many 
agents and so many resources to devote. And they maintain some 
true discretion to decide how, when, whether, to what extent to 
enforce laws, what circumstances are going to trigger the use 
of those resources.
    But, again, what we are talking about here is a national 
memorandum that I am told is being implemented nationally in a 
way so as to just write off entire provisions of Federal law. 
To the extent that is happening, that is very troubling and 
very different than what you described.
    Thank you, Mr. Chairman. I see my time has expired.
    Senator Blumenthal [presiding]. Thank you.
    Senator Durbin.
    Senator Durbin. Thanks, Senator Blumenthal.
    Secretary Johnson, thanks for being here.
    Secretary Johnson. Good morning.
    Senator Durbin. I would like to address an aspect of the 
unaccompanied children's issue, and I do not know if it has 
come up during the course of this hearing. I think it should. 
There are undoubtedly many reasons these children are crossing 
the border. Sonia Nazario, an L.A. Times writer, won a Pulitzer 
Prize for her book ``Enrique's Journey.'' That book explained 
what she believed to be the reason why 75 percent of the 
children were coming across the border. She was referring to 
some 48,000 children as young as 7 years of age crossing our 
border, over half of them by themselves. And the reason they 
were crossing the border was not on its face obvious. It was 
not something said by the President or by Congress or by a 
politician, or maybe the things that might first come to mind. 
They were looking for their mothers. Looking for their mothers. 
And that, I believe, has led them to do things that are 
unimaginable to those of us with children or grandchildren, to 
think that a child as young as 7 would hop a freight train.
    And what they found as a result of looking at this, at the 
University of Houston, they found that these kids, as they were 
coming into the United States, were cold, hungry, helpless, 
half of them unaccompanied, hunted like animals by corrupt 
police bandits and gang members. A University of Houston study 
found most had been robbed, beaten, raped, usually several 
times, some killed, some maimed by these railroad trains.
    That to me cannot be overlooked in this conversation. And 
before we start asking for pronouncements from the President, 
let us stop and reflect as fathers and grandfathers about these 
babies and these children who are desperate to find their 
mothers in America. If this is not a searing indictment of our 
broken immigration system and the need for change, I cannot 
think of anything that is.
    And I want to thank Senator Flake. He and I sat together 
for many, many months working on a comprehensive immigration 
bill, and we gave and took back and forth. And your heart is in 
the right place, Senator. And though we may come out a little 
differently on this issue, I know where you are because you and 
I both voted for that bill. And now we have got to pass that 
bill. But in the meantime, some things are happening.
    When you came to see me on your path to this position, I 
asked you for two things. I asked you to come to a detention 
facility and to meet those who were about to be deported from 
the United States. And you said you would, and Friday you are 
going to, in Broadview, Illinois, at the Broadview Detention 
Facility just outside Chicago. I welcome you, and I will be 
there to greet you on that visit, and you will meet with some 
local people and share your thoughts about the current 
deportation policy.
    The President has said he wants Congress to act on 
comprehensive immigration reform, and he is basically 
withholding decisions that can be made by the Executive in the 
hopes that Congress will do this before the end of July. In the 
meantime, I hope you are in the process of reviewing our 
deportation policy. What can you say to us today about these 
deportations?
    Secretary Johnson. First, I look forward to visiting the 
detention center in Chicago. The whole reason I am going is 
because you mentioned this to me when we had our first visit 
together, and I believe very much in the role that I should 
have reviewing our detention conditions. It is something I did 
at DOD. It is something I intend to continue to do. The one we 
are going to Friday is not the first one I have been to. As I 
mentioned in my opening statement, I have been to McAllen 
Station, Texas, with my wife, who is sitting right there, to 
see these children on Mother's Day. And one of them told me 
something almost exactly like what you said. I asked her, 
``Where is your mother?'' And she said, ``I do not have a 
mother. I am looking for my father in the United States.'' So I 
have encountered this in a very personal way, and I understand 
it.
    The review that I am undertaking is comprehensive. I am 
talking to our work force about our policies and how they 
believe we can more effectively implement our policies. And I 
am also talking to large groups of people on the outside, 
across the spectrum, on better, more effective, fairer 
enforcement policies.
    I believe we can do a better job, and I believe we can have 
clearer guidance, and I believe we can better train it to the 
work force so that what we intend to be implemented is, in 
fact, implemented. And that is my overarching goal, Senator.
    Senator Durbin. Well, I thank you for that. And the 
statistics that come back that suggest over 40 percent of those 
deported have no criminal record--at least that was the case a 
few years ago. Those with criminal records I am not pleading 
for. They have lost their right, as far as I am concerned, to 
even be considered at this moment. But those without criminal 
records and technical immigration violations, many times we are 
breaking up families--families where many American citizens are 
in that household, children and spouses, and families are being 
broken up. And I think we are better than that. I think we can 
keep America safe, we can honor our laws, and yet enforce them 
in a fashion that is truly American, a nation of immigrants 
that should be proud of it heritage. And I thank you for your 
public service.
    Secretary Johnson. Thank you.
    Senator Blumenthal. Thank you, Senator.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. Thank you for your service.
    Secretary Johnson. Good morning.
    Senator Cruz. There is no job more important in the 
administration than protecting our homeland, so I appreciate 
your service in this very important role.
    I would note, as we discuss immigration, I myself am the 
son of an immigrant from Cuba, and I am a passionate advocate 
for legal immigration. Indeed, there is no stronger advocate 
for legal immigration in the U.S. Senate than I am.
    But at the same time, I think much of the discussion of 
immigration ignores, disregards the humanitarian crisis that is 
caused by illegal immigration. As you know, I represent the 
State of Texas, and in the State of Texas, immigration is not 
something abstract and theoretical that we read about in the 
newspapers. Immigration is something that as Texans we deal 
with every day, and illegal immigration is something that as 
Texans we deal with every day.
    The humanitarian crisis that comes from our failure to 
secure the borders is staggering. In 2013, the Border Patrol 
reported the emergencies and crimes it encountered. And most of 
the cases where those who came here illegally were the victims. 
So there were 2,346 rescues, 461 assaults and 445 deaths. 
Indeed, last year I received a letter from one of my 
constituents in Brooks County, a veterinarian who has worked 
with ranchers, Texas ranchers, Mexican ranchers his entire 
life. And this veterinarian wrote, ``I live on a Brooks County 
ranch with my wife. In 2012, 129 bodies of deceased illegal 
aliens were found in our county on private ranch land. Most of 
those bodies were found within 15 minutes of our front door in 
any given direction. We believe those bodies represent only 20 
to 25 percent of the actual number of illegal immigrants dying 
in this area. In 1 week of last July, I personally rescued 15 
people--most were Central Americans--that were lost and close 
to dying from dehydration and heat exhaustion. That same week I 
found a deceased person that had been laid across a dirt road 
in order to be found. He was a 31-year-old man from El 
Salvador.''
    This is a humanitarian crisis that we have a legal system 
in place that is failing to secure the border and that is 
incentivizing people crossing illegally.
    And, second, we have a particular humanitarian crisis with 
respect to unaccompanied minors. That is a crisis that is the 
direct consequence of policies of the Obama administration.
    In 2011, there were roughly 7,000 unaccompanied minors who 
were apprehended. In 2012, that number rose to 14,000. In 2013, 
it rose to 24,000. And in 2014, your agency is estimating it is 
going to be as high as 90,000. In 2015, the administration is 
estimating that it will rise all the way to 145,000.
    Now, it is important to understand what these numbers 
represent. These numbers represent children, little boys and 
little girls that their parents are handing over not to some 
noble social worker trying to help them. They are handing over 
to international global criminal cartels that smuggle human 
beings in. They put these kids, among other places, on top of 
fast-moving freight trains. These are criminals who sexually 
assault, who physically assault, and who sometimes murder these 
children. These are little girls that are sometimes being sold 
into prostitution and sex slavery.
    Now, Mr. Secretary, you testified to this Committee that 
the increase is a result of violence in Central America, and 
there is surely violence in Central America. But if you look at 
the statistics, in particular, you can see where they were--
these are unaccompanied minors in 2011 and 2012. Midway through 
2012 was when the administration unilaterally granted amnesty 
to some 800,000 people who had been minors, the so-called DACA 
proceeding. And you can see shortly after that the numbers 
spike dramatically.
    Is it really your testimony that granting amnesty to some 
800,000 people who came illegally as children had no effect in 
causing a dramatic increase in children being handed over to 
international cartels to be smuggled in here illegally?
    Secretary Johnson. Well, first, DACA is not amnesty. It is 
deferred action.
    Second, DACA applies only to people who came into this 
country as children prior to June 2007. That was 7 years ago. 
DACA does not apply to anybody who comes into this country 
today, tomorrow, or yesterday.
    The earned path to citizenship contemplated in the Senate 
bill does not apply to anybody who comes into this country 
today, tomorrow, or yesterday. It applies to people who came 
into this country by year-end 2011. I believe, Senator, that 
the primary motivator for this spike in migration--and I am not 
a sociologist, I am not an expert--is the situations that 
Senator Durbin and others have laid out in these countries.
    Senator Cruz. Mr. Secretary, my time is expiring, but with 
all respect, in my view that argument is a red herring. That 
argument explains why we have seen an increase in Central 
American immigration, to be sure, because of the problems and 
challenges those nations are facing. But it does not explain 
the unaccompanied minors. In 2011, 15 percent of the OTMs, of 
the other than Mexicans, apprehended were unaccompanied minors. 
In 2014, that number has grown to 37 percent. There is nothing 
about the violence in Central America that would cause people 
to be handing over their children, little girls and little 
boys, separately. It will cause more people from Central 
America to come here, but not the kids.
    And I will say this in closing because my time is expiring. 
It has been widely reported that President Obama, that the 
administration is contemplating yet another amnesty like DACA, 
like 2 years ago, just a couple of months before the upcoming 
election. And I will say to you and I will urge you to pass on 
to the President that I think that would be a grave mistake. I 
think it would be contrary to rule of law. And I think granting 
yet another amnesty would result in those numbers going even 
higher, would result in even more little girls and little boys 
being subjected to violence and horrific, dangerous conditions. 
And it would be a serious mistake for us to go down that road.
    Thank you.
    Senator Blumenthal. Thank you, Senator Cruz.
    Senator Schumer.
    Senator Schumer. Thank you, and thank you, Secretary 
Johnson. I am very glad you are there, and you are off to a 
great start. And I would not expect anything less from a New 
Yorker, although I heard Senator Menendez claims you are New 
Jerseyan. So I guess we will have to share your lineage, 
heritage, or whatever you call it.
    I have a couple of quick questions----
    Secretary Johnson. When I was at Paul Weiss, I paid taxes 
in both jurisdictions.
    Senator Schumer. Ah, good. Good, or not so good. I do not 
know how we answer that one.
    Anyway, earlier this year, due to backlogs at USCIS, it was 
taking about a year to process the I-130 applications. That is 
where U.S. citizens petition to bring their immediate relatives 
from foreign countries--spouses, parents, minor children. 
Earlier this year I sent you a letter on this issue, and you 
did a great job alleviating some of the backlog.
    But I still have several cases in my office where our men 
and women in uniform have had to wait up to a year to be 
reunited with their relative. I think it is unfair that our 
veterans are getting caught in the backlog. They more than 
anyone else deserve to be reunited with loved ones and a 
support system as soon as possible.
    So the backlogs at USCIS tend to increase and decrease 
depending on world events, but I think there should never be a 
time when veterans have to wait more than 6 months to reunited 
with their families.
    Would you be willing to commit to creating a special 
process for making sure that the average processing time for I-
130 veterans never takes longer than 6 months?
    Secretary Johnson. Senator, I am aware of your interest in 
this issue. I do believe that we should do everything we can to 
make life easier for our veterans, those who have served in 
uniform, and I think we should be--I think we should pay 
attention to their situation.
    Six months, I do not know whether that is feasible, but I 
do--I have----
    Senator Schumer. Can you work toward making it happen if it 
is feasible?
    Secretary Johnson. I have talked to my staff about this 
issue, and I agree that we should work to help military----
    Senator Schumer. You do agree with the concept of 
expediting things for our veterans?
    Secretary Johnson. Yes, sir.
    Senator Schumer. Good. Okay. Thank you.
    Next, a more parochial issue but one of great importance to 
the western portion of my State: the Buffalo Bills. They are an 
important--what do they have to do with you? You will find out 
in a minute. The Buffalo Bills are an important economic engine 
to the western New York community, but many of their fans are 
in Canada but do not come to games because of the traffic to 
travel to Buffalo through our ports of entry on game days. In 
other words, normal Sunday, not much traffic. But when there 
are Bills games, there is a huge amount of traffic, and yet the 
staffing levels at the border do not take that into account, so 
we have huge backlogs. And then people stop coming because they 
miss the game.
    So you have done a great job adding new agents to the ports 
of entry in western New York. We talked about it. You have 
acted on it. I thank you for that.
    The question now is whether with these new agents and 
resources, can we make it easier for Canadians to attend Bills 
games on the eight Sundays of the year on which the games are 
in Buffalo? It would be a huge boost to western New York's 
economy. Specifically, can we do things like making sure we 
have premium staffing on the lanes on the Peace Bridge during 
the 3 hours before the game on game days, and having DHS create 
a setup at the stadium during the Bills games so fans can sign 
up and conduct NEXUS interviews so they can use the NEXUS lanes 
for future games, which would speed up things for everybody? 
The only way we know who is a Bills fan is who is at the games. 
So it is often hard to do these interviews because they are in 
remote locations. Bringing them to Bills games would make it 
easier for thousands of fans to get the cards.
    And the next thing, finally, would you agree to meet with 
whomever the next owner is--we are looking for a new owner of 
the Bills. We are all working very hard, myself, the 
congressional delegation, the Governor, the county executive, 
the mayor, to make sure the Bills stay in Buffalo. And so we 
are going to have a new owner, and one of the things that would 
be helpful is if you would agree to meet with the next owner to 
develop a comprehensive plan to flow the speed of traffic over 
the border on game day.
    Secretary Johnson. My answer concerning getting Bills fans 
to Bills games depends entirely on who they are playing.
    [Laughter.]
    Secretary Johnson. Just kidding.
    Senator Schumer. They do not win that much. We wish they 
won more.
    Secretary Johnson. Senator, I think you know that I have 
spent a lot of time working on expediting travel across the 
northern border: the Peace Bridge; I have been to Detroit; I 
have been to Port Huron looking at the backlog over the bridge 
in Candice Miller's district. And so I want to--I appreciate 
the importance of expediting travel across the few bridges we 
have on the northern border, and I want to help out the 
situation there.
    Whether it is meeting the Bills owner or not, I mean, I 
would be happy to meet the Bills owner at some point. But I 
want to work with you on this. I would be happy to work on 
that.
    Senator Schumer. Great. So would you look into these two 
things? I mean, aside from the meeting, premium staffing on 
game days--not all day it does not have to be but just for the 
hours before the game--and the possibility of having DHS do a 
NEXUS setup at the Bills stadium during game days.
    Secretary Johnson. I will look into it to see whether it is 
feasible.
    Senator Schumer. Great. Okay.
    Secretary Johnson. As you know, we have limited numbers of 
people, and----
    Senator Schumer. I do, but because of our increase in the 
budget and because you were good enough to put some of them on 
the Niagara frontier, we have more than we had before, which I 
think makes it possible to do these things. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Schumer.
    I have a number of questions for you, and then I think 
Senator Flake has a few questions, and that will probably end 
our hearing.
    Secretary Johnson. Okay.
    Senator Blumenthal. And thank you for your patience and, 
most important, thank you for your service.
    In March of this year--you may or may not recall--I wrote 
to you about the detention policies and practices of your 
agencies, and I expressed a number of concerns regarding the 
detention of literally hundreds of thousands of people. ICE 
broke a record in 2012 by detaining 477,000 people. That is 
about five times the number detained 20 years ago. And I know 
that you are hearing from both sides of this issue, and the 
contention that we heard this morning I think emphasizes the 
importance of passing immigration reform so that we can address 
many of these questions.
    My concerns expressed in March essentially dealt with the 
excessive detention of long-time lawful permanent residents and 
asylum seekers who are kept in detention without any 
opportunity to appear before a judge or the Constitution 
requires bond hearings to protect detainees' rights, as you 
well know. So the lack of bond hearings for thousands of 
immigrants is a real concern for many of us, including myself.
    So let me reiterate the question that I asked. Is there a 
way for the Department of Homeland Security to work with the 
Department of Justice to provide for immigration judge bond 
hearings to all individuals detained by the Department after no 
more than 6 months of detention, the time the U.S. Supreme 
Court has held is presumptively reasonable?
    Secretary Johnson. Senator, I remember your letter. I hope 
I have responded to it by now. If I have not, I apologize.
    Senator Blumenthal. You responded to it, Mr. Secretary, 
but--or I should correct myself. You did not personally. The 
agency did in the person of Thomas Winkowski, Principal Deputy 
Assistant Secretary, who said, in effect--and I may not be 
doing full justice to the letter--that the issues raised in my 
letter, this was one of them, ``require consultation with our 
partners at DOJ, including the Executive Office for Immigration 
Review.'' That was back in mid-April.
    Secretary Johnson. Okay. There is a case in the Ninth 
Circuit, Rodriguez, that was decided last year, and it is under 
review right now in DOJ and at DHS. We are considering whether 
to petition for cert in the case, and it directly implicates 
this issue.
    There is a mandatory detention statute for certain 
categories of individuals, and my understanding of the 
Rodriguez case is that it says that after a 6-month period, 
there should be a bond hearing in certain circumstances. And so 
the case is under review right now. My general view is that we 
need to enforce statutes unless and until they are declared 
unconstitutional. But the case is under review right now. So it 
is something we are actively looking at.
    Senator Blumenthal. In my view, Mr. Secretary, you have 
that discretion right now. The statute does not require that 
you deny bond hearings. In fact, the better view of the policy 
here, I would suggest respectfully, as I did in my letter, is 
that you grant the bond hearings.
    And let me also say that the other question raised in my 
letter is whether the definition of ``custody'' can be expanded 
to include alternatives to detention, alternatives that would 
prevent flight, where detainees are not in any way a risk to 
public safety.
    So those are two proposals that I have advanced--not 
original to me--that would comply with the statute. It would 
not require a court decision. It would not implicate a 
necessity for you to wait for a court decision.
    Secretary Johnson. I am aware of that question about the 
definition of ``custody.'' I recall that you asked that 
question, and I know it is under review right now. On this type 
of issue, I cannot do anything without lawyers.
    Senator Blumenthal. And I am not going to press you because 
I can sense from your response that you are--well, let me put 
it this way: I hope that you will get back to me about these 
issues in a timely way.
    Let me ask you finally, I have heard from a great many 
Connecticut constituents who have mixed-status families; parts 
of their families are here legally, sometimes their children 
have been born here, sometimes they have children who were 
brought here as infants or very young children and have been 
granted DACA status. They live in fear of having parents or 
siblings or children deported.
    I would like to ask you the question that has been asked in 
slightly different terms, maybe with a different viewpoint. Are 
you considering expanding DACA to include more young people who 
were brought here as children and who have deep ties to our 
communities but may not meet all of the present DACA 
requirements? I am thinking about young people who are pursuing 
their education who narrowly miss being eligible for DACA 
because they have passed their 31st birthday or because they 
had to leave the country at some point after 2007 due to 
extraordinary circumstances.
    Secretary Johnson. The President asked me to undertake a 
review in March of our enforcement priorities. I am still 
undertaking that review. It has encompassed a number of things. 
I have not reached conclusions yet. As you know, I am sure, 
from public accounts, press accounts, he has asked me to wait 
to see what Congress does with comprehensive immigration reform 
before I report out the results of my review. But I am 
reviewing a number of different things, and I have not reached 
any firm conclusions at this time.
    Senator Blumenthal. I appreciate that answer, and I would 
just urge, having listened to and met and come to know many of 
the Connecticut young people who, unfortunately, are excluded 
from this deferred action status, who have lived here and 
studied in Connecticut, and whose lives are here, that you 
would expand the DACA status, the deferred action status, if 
the Congress fails to act. My hope is that Congress will act, 
in my view must.
    Secretary Johnson. My hope is, too.
    Senator Blumenthal. And I know we share that view. But if 
it fails to do so, I would strongly urge that the deferred 
action status be expanded.
    Senator Flake.
    Senator Flake. Thank you, and I appreciate your indulgence, 
and yours, for answering just a couple of other areas on 
specific questions. But before I do that, you had mentioned, 
when we talked about motivations for people coming here, that 
you believe the primary motivation is the situation in these 
countries. I just have to say that that conflicts with an 
internal unreleased document that I believe you have a copy of 
now that has been cited by the media where interviews were done 
in the Rio Grande Valley by the sector intelligence analysts 
and others interviewing 230 family units that have come across. 
This was in May. May 28th of 2014 is when this report was 
released, and asking--the main purpose of it was, to quote the 
report, ``to determine the factors compelling the OTMs to 
migrate to the United States, in addition to other migration 
issues.'' And it says that of those 230, it said that the 
information--let us see: ``A high percentage of the subjects 
interviewed stated their family members in the U.S. urged them 
to travel immediately because the U.S. Government was only 
issuing immigration permisos until the end of 2014.'' Obviously 
it is bad information, but they believe that there is lax 
enforcement or some new program that needs to be addressed by 
this administration to let people know that that is not the 
case.
    The issue of permisos was the main reason provided by 95 
percent--95 percent--of the interviewed subjects. We want to 
talk about the primary reason. Ninety-five percent seems like 
more of a primary reason than the economic or security 
situation in their country. The second reason was related to 
increased gang-related violence in Central America. But, 
remember, 95 percent listed as the primary reason some 
expectation of a program that would allow them to stay.
    And so I would again plead with the administration, the 
President needs to state unequivocally that those who come here 
will not be able to stay, that they will not qualify under DACA 
or under any other program, and any deportation policy review 
will not contemplate allowing them to stay. That would be, I 
would think, incredibly helpful. If you could relay that 
message back to the President, we are trying to do so as well.
    But with regard to Arizona, you mentioned that people were 
being pulled off the line. I think in Arizona--I had staff down 
at the Nogales facility. They mentioned that as many as 200 
officers, Border Patrol officers, were being utilized to 
process these families and these unaccompanied children. That 
obviously is going to pull people off the line.
    What are we doing in terms of additional resources for 
Arizona in the Tucson Sector?
    Secretary Johnson. I believe a number of things, Senator, 
including reassigning people from within the interior. I can 
get back to you with a more detailed breakdown of work 
allocations and so forth. You know, it is possible that a 
Border Patrol officer or agent could be involved in the 
processing of a migrant someplace near the border, even in 
regular circumstances. But no doubt this surge has required 
that we reallocate, that we ask people to do things they do not 
normally do in addition to their normal responsibilities, and 
we are working to try to restore the equilibrium, because I 
agree with you that our border security personnel need to focus 
on border security. I am the first one to acknowledge that.
    The document, everyone--a number of people here have 
referred to it. I have not seen it. I keep hearing about a 
draft document. I do not know how reliable this survey is. I am 
sure 5 minutes after I walk out of here, or 10 seconds after I 
walk out of here, somebody is going to put it in my hands and I 
will get to read it. I just do not know how reliable that 
survey is. I tend to agree with Senator Durbin that a 10-year-
old or a 7-year-old child's principal motivation are the 
circumstances they are leaving, and they want to be with their 
mother and their father.
    Senator Flake. Certainly. I do not think any of us deny 
that. But not many 10-year-olds and 7-year-olds are actually 
climbing on a bus or a train alone from Guatemala. It is 
usually kids older than that or smugglers taking them in.
    Also, one other question. ICE is responsible to take a 
family unit, I guess, and put them at a bus stop. And I guess 
some of that was going on in Arizona. Is that happening 
anymore?
    Secretary Johnson. My understanding is that, with regard to 
Nogales, the people that we are--the individuals we are now 
sending there are the UACs, the unaccompanied children, who 
under the law have to go to HHS. Whether it is possible that we 
need to send more family units to Nogales for processing, I 
would not say and I cannot rule that out. But my understanding 
is that since about June 1st we have been sending principally, 
if not exclusively, the unaccompanied children to Nogales for 
processing.
    Senator Flake. When ICE takes a family unit to a bus stop 
and drops them off there with an order to appear at some place 
and time, what care is being taken to ensure that is actually a 
family unit? We hear anecdotal evidence that some 16-year-old 
will say, ``Well, I belong to that family,'' and they get to 
the bus stop and say, ``See you later.''
    Is ICE required to do some kind of due diligence to make 
sure that that actually is----
    Secretary Johnson. I am sure there is some type of protocol 
in place to ensure that a group of people who claim to be a 
family unit are, in fact, a family unit. But I, sitting here, 
do not know what that is.
    Senator Flake. All right. Thank you. And thanks for your 
indulgence again. I appreciate it.
    Senator Blumenthal. Thank you, Mr. Secretary. I am going to 
close this hearing. The record will be kept open for 1 week. We 
thank you very much for your service and for your very helpful 
and forthright testimony today.
    Thank you.
    [Whereupon, at 12:49 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]



</pre></body></html>
